<html>
<title> - THE IRAN NUCLEAR DEAL: DOES IT FURTHER U.S. NATIONAL SECURITY?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






     THE IRAN NUCLEAR DEAL: DOES IT FURTHER U.S. NATIONAL SECURITY?

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2013

                               __________

                           Serial No. 113-108

                               __________

        Printed for the use of the Committee on Foreign Affairs







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

86-003 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     5

                                APPENDIX

Hearing notice...................................................    48
Hearing minutes..................................................    49
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    51
Questions submitted for the record to the Honorable John F. Kerry 
  by:
  The Honorable William Keating, a Representative in Congress 
    from the Commonwealth of Massachusetts.......................    52
  The Honorable Joe Wilson, a Representative in Congress from the 
    State of South Carolina......................................    54
  The Honorable Paul Cook, a Representative in Congress from the 
    State of California..........................................    56
  The Honorable Scott Perry, a Representative in Congress from 
    the Commonwealth of Pennsylvania.............................    57

 
     THE IRAN NUCLEAR DEAL: DOES IT FURTHER U.S. NATIONAL SECURITY?

                              ----------                              


                       TUESDAY, DECEMBER 10, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 1:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order.
    Today the committee will discuss the interim nuclear 
agreement which the United States and five other Nations have 
reached with Iran last month.
    And we welcome our Secretary of State, the Honorable John 
Kerry, to address the questions of the committee members here 
regarding the administration's plan.
    And Mr. Secretary, we very much appreciate you coming 
before the committee today. And while we will debate how best 
to derail Iran's nuclear weapons program, I know that you and 
all of us appreciate that it poses a threat to our national 
security here in the United States.
    Congress has played a key role in U.S. policy toward Iran, 
mainly by driving sanctions against the regime. And I will 
remind the members of this committee that the legislation which 
we passed here passed out unanimously, legislation that--the 
Royce-Engel bill, which passed the House of Representatives 
last summer, passed by a vote of 400 to 20. So we look forward 
to a constructive discussion today. These are high-stake 
issues. But I am confident that the spirit of bipartisanship 
will prevail, as it typically does on this committee. And we 
welcome our Secretary of State here today.
    The key issue is whether a final agreement would allow Iran 
to manufacture nuclear fuel. Unfortunately, the interim 
agreement raises some questions about this. My concern is that 
we have bargained--we may have bargained away our fundamental 
position, which is enshrined in six U.N. Security Council 
resolutions. And that fundamental agreement is that Iran should 
not be enriching and reprocessing. And we may bargain that away 
for a false confidence that we can effectively block Iran's 
misuse of these key nuclear bomb making technologies.
    Just within the last few days, Iran has announced plans to 
press on and improve its centrifuge technology in order to 
enrich uranium. Meanwhile, on Wednesday, we had the comment 
from the Foreign Minister of Iran stating that Iran was going 
to continue construction at the plutonium reactor at Arak, 
which will be capable of producing weapons-grade plutonium once 
it is operational. And we had another comment from those in the 
regime that they may produce, that they will set up more of 
these plutonium reactors. That tells us something about Iran's 
intentions. And that is why we are concerned about how this 
agreement will be enforced. Yes, we agree, you know, on the 
concept of verification, that we have to have good 
verification. One of the things we remember, as we deal with 
this government in Iran, is that it is one that aggressively 
supports terrorism, supports the most radical groups. In 2006, 
I was in Haifa when it was being shelled, and it was being 
shelled specifically with Iranian missiles and missiles 
provided, rockets provided by Syria. This is a regime which, as 
we were reminded not too long ago, Mr. Ted Deutch reminded me, 
that when we heard the rally and the slogan ``Death to 
America,'' it was not just the Basiji that were marching; it 
was members of the government as well that were shouting 
``Death to America.'' It is a regime which brutally, brutally 
represses its own people. And oftentimes the way a country 
treats its own citizens tells you how it might treat others. 
And it threatens our ally with extinction, saying that Israel 
is a country which could be destroyed with just one bomb. It is 
that kind of commentary out of the regime that gives us pause.
    And this is the important point to many of us. It has a 
history of deceiving the international community about its 
nuclear program. The director of the IAEA raised that concern 
with me. It has that history, and it is pursuing a ballistic 
missile program in violation of U.N. Security Council 
resolutions as well. So Iran is not just another country. It 
simply can't be trusted with enrichment technology because 
verification efforts can never be foolproof with respect to 
their ability to get undetectable nuclear breakout. That is one 
of the concerns we have. An agreement in which Iran purchases 
and returns spent nuclear fuel for energy generation is one 
thing. That is something that we were willing to get an 
agreement on. But allowing enrichment, I feel, is too high, 
going beyond the lines of realistic international control.
    There has been a lot of talk about whether Iran has the 
right to enrich technology. This committee has held several 
hearings on the Nonproliferation Treaty over the years. It is 
clear that Iran has no such right under that treaty. And while 
I have heard the administration say that Iran has no right, it 
is a moot point in an agreement permits enrichment, giving Iran 
a de facto right.
    The proposed sanctions relief is another concern. The 
sanctions pressure that drove Iran to the negotiating table 
took years to build. While the interim agreement relief is 
limited, governments throughout the world will not be easily 
convinced to reverse course and ratchet up sanctions pressure 
if Iran is only buying time with this agreement. Moreover, 
companies have stayed away from Iran as much due to the 
atmosphere of international isolation as to the letter of U.S. 
sanctions law. I am concerned that that may now be lost because 
foreign-based oil companies have jumped to start discussions 
with Iran.
    This is the headline from the Wall Street Journal, ``Iran 
Deal Opens Door for Businesses.'' We have got to counter that 
impression.
    Lastly, a point I want to make is that sanctions have 
worked elsewhere. International sanctions pressure brought down 
the immoral apartheid regime in South Africa. That led to South 
Africa not only releasing Nelson Mandela from prison, but also 
abandoning its nuclear arsenal, giving up its atomic bomb. A 
bipartisan coalition, from Newt Gingrich to John Kerry, 
supported those tough sanctions, even overriding a Presidential 
veto. Negotiations, quiet diplomacy was tried first. But at the 
end of the day, there was the intent that if we did not achieve 
the result that the overbearing, the overwhelming sanctions 
would be imposed. And indeed they were, and indeed they worked.
    We are facing an immoral and very dangerous regime in Iran, 
one nearing a nuclear weapon. I am hard pressed to understand 
why we would be letting up sanctions pressure at the very time 
its economy is on the ropes without getting an agreement which 
stops its centrifuges from spinning. I think all of us expected 
that the sanctions would be used to get an agreement that 
stopped the centrifuge program, to stop those from spinning. 
And that is my basic concern here.
    I now turn to Ranking Member Engel for his opening 
statement.
    Mr. Engel. Thank you.
    Thank you, Mr. Chairman.
    Secretary Kerry, thank you for appearing before the 
committee today, and for your tireless efforts to enhance the 
security and prosperity of the United States.
    Thank you, Chairman Royce, for calling this hearing on an 
issue that obviously is of paramount importance to American 
national security.
    Upon taking office nearly 5 years ago, President Obama 
inherited an almost nonexistent strategy to deal with the 
looming threat of Iran obtaining a nuclear weapons capability. 
The President initially focused on the diplomatic track. But 
the limitations of that one-dimensional approach soon became 
apparent when Iran walked away from the P5+1 negotiations in 
October 2009. After that, the administration shifted to a two-
track strategy, which coupled engagement with increasing 
economic pressure through sanctions, while making it clear that 
all options remain on the table. This is the policy I favored. 
And the President, together with Secretary Clinton, succeeded 
beyond expectations in uniting the international community 
against Iran's nuclear ambitions.
    The U.N. Security Council and the European Union, acting in 
parallel with our efforts, imposed tough new sanctions on Iran. 
This committee took the lead on a bipartisan basis to pass 
biting sanctions legislation, the Royce-Engel bill, designed to 
cripple the Iranian economy, giving the administration the 
tools it needed to change the calculus of the Iranian regime. 
That was a bill that passed unanimously out of this committee. 
I was very, very proud of it, to work on such a bipartisan 
basis with Chairman Royce. And then passed the floor, as the 
chairman has pointed out, by a vote of 400 to 20. It was, I 
think, one of the finer days of the United States House of 
Representatives. Over the last 3 years, President Obama has 
signed four major Iran sanctions bills into law. Taken together 
with international sanctions, this has made it exceedingly 
difficult for Iran to sell its oil on the global markets, cut 
off Tehran from the international financial system, and 
severely limited Iran's access to hard currency. Several weeks 
ago, thanks to sustained efforts by Congress and the 
administration, the Iranians finally admitted that the 
sanctions are hurting them badly. And for the first time, they 
started talking about the specifics of a negotiated settlement 
to curtail their nuclear program. As all of us know, the P5+1 
reached an interim agreement with Iran at the end of November.
    And Secretary Kerry, I want to commend you for your 
incredible personal efforts to secure this deal. It makes me 
tired just watching all of your travel back and forth across 
the Atlantic and around the world. But having said that, I want 
to make it clear that I have some serious reservations about 
the agreement.
    First and foremost, it seems to me at a minimum, it should 
have required Iran to suspend uranium enrichment, as demanded 
by six separate U.N. Security Council resolutions. I don't 
think it is asking too much of Iran to say that at least while 
we are talking, you stop enriching. For the 6-month period 
while we are talking Iran, in my estimation, should not be 
enriching. And if they refuse to do that, again going counter 
to six separate U.N. Security Council resolutions, it makes me 
wonder how serious they are and how sincere they are in terms 
of really wanting to negotiate in good faith.
    Mr. Secretary, you and other administration officials have 
sought to make the case that the interim agreement will place 
significant restraints on the Iranian nuclear program, and not 
allow it to advance while we negotiate a long-term settlement 
to eliminate the threat of an Iranian nuclear weapons 
capability once and for all. You have also said that the 
sanctions relief we are providing is very limited and 
reversible. I hope you are right. And I am sure you will agree 
with me that the interim agreement must be fully implemented 
and completely verified. I can assure you that Congress will 
act immediately to ratchet up the pressure with the first sign 
of cheating or backtracking by Iran.
    Mr. Secretary, I hope you can confirm for the committee 
today that the administration will continue to enforce all 
sanctions that remain in place during the implementation of the 
interim agreement and that you will not hesitate to designate 
additional entities for sanctions over the next 6 months as 
circumstances warrant.
    In addition, I hope you will send a clear message to 
businesses all over the world that now is not the time to make 
plans to reenter Iran. And again, the chairman showed that 
headline in the Wall Street Journal.
    In order for me to support a comprehensive agreement, 
restraints must be put in place to assure us that Iran cannot 
continue down the path of a nuclear weapon.
    In that context, Secretary Kerry, I hope you will address 
the following questions in our discussion today. First, if Iran 
retains any enrichment capacity, how can we be sure that they 
will not forever remain on the brink of a breakout capacity? 
Second, why do many of our closest regional allies feel the 
interim deal caught them by surprise? And what are you going to 
make certain--what are you doing to make certain that they are 
included as negotiations continue on a final deal? Three, 
allies of the United States that look at Iran as an existential 
threat to them--Saudi Arabia, Israel, United Arab Emirates--all 
oppose the deal. They are the ones closest to it. Why is that 
the case? Why does the administration strongly oppose 
congressional action on Iran sanctions legislation which makes 
clear new sanctions will not be imposed unless Iran violated 
the terms of the interim deal? So now that we have an interim 
deal we must focus with laser-like intensity on ensuring that 
any long-term agreement dismantles all Iranian nuclear 
infrastructure that could lead to a breakout capacity. Any deal 
which does not achieve that goal will be a devastating failure.
    Mr. Secretary, it is critical that you and the President 
consult very closely with Congress as you implement the interim 
agreement and negotiate a final deal. Waivers in existing 
sanctions legislation will only get you so far, and it is 
likely that Congress would have to pass legislation to 
implement any comprehensive deal. But it will be impossible to 
take that step unless this committee and the full House are 
fully informed and absolutely convinced that Iran has agreed to 
verifiably abandon its efforts to develop a nuclear weapons 
capability.
    And finally, Mr. Secretary, as you continue to engage with 
the Iranians, and I know you know this, but I really need to 
mention it, I would urge you to remain cognizant of the fact 
that Iran remains the top state sponsor of terrorism in the 
world, continues to support Hezbollah, and the brutal Assad 
regime in Syria, continues to engage in systematic violations 
of human rights, continues its efforts to destabilize a number 
of Persian Gulf states, and continues to imprison innocent 
Americans, all of this under the so-called moderate Rouhani 
government. So, again, Mr. Secretary, thank you for appearing 
today, and I look forward to hearing your testimony.
    Chairman Royce. Members of the House, this afternoon, we 
are pleased to be joined by John Kerry, our country's 68th 
Secretary of State.
    Prior to his appointment, Secretary Kerry served as a 
United States Senator from Massachusetts for 28 years, chairing 
the Senate Foreign Relations Committee during the last 4 years 
of his tenure. The Secretary was in the Middle East just last 
week. He will be returning there tomorrow before heading to 
Southeast Asia to, among other things, assess relief efforts in 
the Philippines. It is a demanding schedule.
    Without objection, Mr. Secretary, your prepared statement 
will be made part of the record. The committee members here 
will have 5 days to submit statements and questions for the 
record.
    And Mr. Secretary, we would like to again welcome you 
before this committee today. Thank you.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Well, Mr. Chairman, thank you very, very 
much.
    Ranking Member Engel, members of the committee, thanks very 
much for welcoming me back. And I am happy to be back here. 
There is no more important issue in American foreign policy 
than the question of the one we are focused on here today. And 
obviously, from the chairman's introduction, you know that I 
come here with an enormous amount of respect for your 
prerogatives on the House Foreign Affairs Committee, as we did 
in the Senate. And it is entirely appropriate that we are here 
to satisfy your questions, hopefully allay your concerns and 
fears, because I believe the agreement that we have ought to do 
that. And I think the path that we are on should do that. And 
as I describe it to you, I hope you will leave here today with 
a sense of confidence that we know what we are doing, our eyes 
are open, we have no illusions. It is a tough road. I don't 
come here with any guarantees whatsoever. And I think none of 
what we have done in this agreement begs that notion. In other 
words, everything is either verifiable or clear, and there are 
a set of requirements ahead of us which will even grow more so 
in the course of that comprehensive agreement. And we can talk 
about that; I am sure we will in the course of the day.
    Let me just begin by saying that President Obama and I have 
both been very clear, as every member of this committee has 
been, that Iran must not acquire a nuclear weapon. And it is 
the President's centerpiece of his foreign policy Iran will not 
acquire a nuclear weapon. This imperative is at the top of our 
national security agenda. And I know it is at the top of yours 
as well.
    So I really do welcome the opportunity to have a 
discussion, not only about what the first step agreement does 
but also to clarify, I hope significantly, what it doesn't do. 
Because there is a certain, as there is in any of these kinds 
of things, a certain mythology that sometimes grows up around 
them. The title of today's hearing is, ``The Iran Nuclear Deal: 
Does It Further U.S. National Security?'' And I would state to 
you unequivocally, the answer is yes. The national security of 
the United States is stronger under this first step agreement 
than it was before. Israel's national security is stronger than 
it was the day before we entered into this agreement. And the 
Gulf and Middle East interests are more secure than they were 
the day before we entered this agreement.
    Now, here is how. Put simply, once implemented, and it will 
be in the next weeks, this agreement halts the progress of 
Iran's nuclear program, halts the progress, and rolls it back 
in certain places for the first time in nearly 10 years. It 
provides unprecedented monitoring and inspections while we 
negotiate to see if we can conclude a comprehensive agreement. 
If we can conclude. And I came away from our preliminary 
negotiations with serious questions about whether or not they 
are ready and willing to make some of the choices that have to 
be made. But that is what we put to test over the next months. 
While we negotiate to see if we can conclude a comprehensive 
agreement that addresses all of our concerns, there is an 
important fact: Iran's nuclear program will not move forward. 
Under this agreement, Iran will have to neutralize, end its 
entire stockpile of 20 percent enriched uranium, which you all 
know is a short step away from weapons-grade uranium. So if you 
remember when Prime Minister Netanyahu held up that cartoon at 
the U.N. with the bomb in it in 2012, he showed the world a 
chart that highlighted the type of uranium that he was most 
concerned about. And he was talking about that 20 percent 
stockpile. Under this agreement, Iran will forfeit all, not 
part, all of that 20 percent, that 200 kilogram stockpile. 
Gone. Under this agreement, Iran will also halt the enrichment 
above 5 percent. And it will not be permitted to grow its 
stockpile of 3.5 percent enriched uranium. Iran cannot increase 
the number of centrifuges in operation. And it will not install 
or use any next-generation centrifuges to enrich uranium.
    Under this agreement, we will have increased transparency 
of Iran's nuclear program, giving us a window into their 
activities that we don't have today. We will have access to 
Fordow, a secret facility in a mountaintop, that we have never 
been in. We will now get into it, not once or twice, every 
single day. We will get into Natanz and have the ability to 
know, not once or twice, but every single day what is happening 
in Natanz. And we will have access each month to the Arak 
facility, where we will have an extraordinary ability to be 
able to know, through inspections, whether or not they are 
complying with their requirements.
    Now, this monitoring is going to increase our visibility 
into Iran's nuclear program, as well as our ability to react 
should Iran renege on this agreement. And taken together, these 
first steps will help prevent Iran from using the cover of 
negotiations to continue advancing its nuclear program in 
secret, a concern that everybody on this dais shares. Now, in 
addition, and this is very important, one of our greatest 
concerns has been the Arak, A-r-a-k, nuclear reactor facility. 
And this is a heavy water plutonium-capable reactor. That is 
unacceptable to us. In the first step, we have now succeeded in 
preventing them from doing any additional fuel testing, from 
transferring any fuel rods into the reactor and from installing 
any of the un-installed components which are critical to their 
ability to be able to advance that particular reactor. So it is 
frozen stone cold where it is in terms of its nuclear threat 
and capacity. Iran will not be able to commission the Arak 
reactor during the course of this interim first step agreement. 
Now, that is very important.
    Now, we have strong feelings about what will happen in a 
final comprehensive agreement. From our point of view, Arak is 
unacceptable. You can't have a heavy water reactor. But we have 
taken the first step in the context of a first step. And they 
will have to halt production of fuel for this reactor and not 
transfer any fuel or heavy water to the reactor site. It cannot 
conduct any additional fuel testing for this. And Iran is 
required to give us design information for the site. We are 
actually going to have the plans for the site delivered to us. 
We have long sought this information. And it will provide 
critical insight into the reactor that has not been previously 
available to us through intel or any other sources. Now, those 
are the highlights of what we get in this agreement. Now, I 
know many of you have asked, well, what does Iran get in 
return? And I have seen outlandish numbers out there in some 
articles talking about $30 billion, $40 billion, $50 billion 
and so forth, or a disintegration of the sanctions.
    My friends, that is just not true. It is absolutely not 
true. We have red teamed and vetted and cross-examined and run 
through all the possible numbers through the intel community, 
through the Treasury Department, through the people in charge 
of sanctions. And our estimates are that at the end of the 6 
months, if they fully comply, if this holds, they would have 
somewhere in the vicinity of $7 billion total. And this is 
something that I think you ought to take great pride in. I was 
here as chairman when we put this in place. I voted for the 
sanctions, like we all did in the United States Senate. I think 
we were 100 to nothing, as a matter of fact. And we put them in 
place for a purpose. The purpose was to get to this 
negotiation. The purpose was to see whether or not diplomacy 
and avoidance of war could actually deliver the same thing or 
better than you might be able to get through confrontation.
    Now, sanctions relief is limited to the very few targeted 
areas that are specified in this agreement, for a total of 
about the $7 billion that I have described. And we will 
continue to vigorously, Ranking Member Engel, we will 
absolutely--not only will we--I mean, this is going to actually 
result in a greater intensity of focus on the sanctions because 
I have sent a message to every single facility of the United 
States, anywhere in the world, that every agency is to be on 
alert to see any least movement by anybody toward an effort to 
try to circumvent or undo the sanctions. We don't believe that 
will happen. And one of the reasons it won't happen is we have 
a united P5+1. Russia, China, the United States, France, 
Germany, and Great Britain are all united in this assurance 
that we will not undo the sanctions and that we will stay 
focused on their enforcement.
    Now, all the sanctions on Iran, further, on its abysmal 
human rights record, over its support for terrorism, which you 
mentioned, and over its destabilizing activities in places like 
Syria, those sanctions will all remain in effect. They have 
nothing to do with the nuclear. They are there for the reasons 
they are there. And we are not taking them off. This agreement 
does provide Iran with a very limited temporary and reversible 
relief. And it is reversible at any time in the process that 
there is noncompliance. If Iran fails to meet its commitments, 
we can and will revoke this relief. And we will be the first 
ones to come to you, if this fails, to ask you for additional 
sanctions. The total amount of relief is somewhere between the 
$6 billion and $7 billion that I described. That is less than 1 
percent of Iran's $1 trillion economy. And it is a small 
fraction of the $100 billion plus of oil revenue alone that we 
have deprived Iran of since 2012. I want you to keep in mind 
this really pales in comparison to the amount of pressure that 
we are leaving in place. Iran will lose $30 billion over the 
course of this continued sanctions regime over the next 6 
months. So compare that: They may get $7 billion of relief, but 
they are going to lose $30 billion. It is going to go into the 
frozen accounts. It will be added to the already $45 billion or 
so that is in those accounts now that they can't access.
    And during the 6-month negotiating period, Iran's crude oil 
sales cannot increase. Oil sanctions continue as they are 
today. There is no diminishment of the oil and banking 
sanctions that you put in place. We have not lifted them. We 
haven't eased them. That means that as we negotiate, oil 
sanctions will continue to cost Iran about the $30 billion I 
just described and Iran will actually lose more money each 
month that we negotiate than it will gain in relief as a result 
of this agreement. And while we provide $4.2 billion in relief 
over the 6 months, which is direct money we will release from 
the frozen account, we are structuring this relief in a way 
that it is tied to concrete IAEA-verified steps that they have 
agreed to take on the nuclear program. That means that the 
funds will be transferred, not all at once, but in installments 
in order to ensure that Iran fulfills its commitments. And it 
means that Iran will not get the full measure of relief until 
the end of the negotiating period, when and if we verify, 
certify that they have complied.
    So now we have committed, along were our P5+1 partners, to 
not impose any new nuclear-related sanctions for the period of 
the 6 months. Now, I am sure there are questions about this. I 
know I have seen--and there are some in Congress who have 
suggested they ought do it. I am happy to answer them. I will 
tell you that in my 29 years, just about shy of the full 29, I 
have served in the Senate, I was always the leading proponent 
of the sanctions against Iran. I am proud of what we did here. 
But it was undeniable that the pressure we put on Iran through 
these sanctions is exactly what has brought Iran to the table 
today. And I think Congress deserves an enormous amount of 
credit for that. But I don't think that any of us thought we 
were just imposing these sanctions for the sake of imposing 
them. We did it because we knew that it would hopefully help 
Iran dismantle its nuclear program. That was the whole point of 
the regime.
    Now, has Iran changed its nuclear calculus? I honestly 
don't think we can say for sure yet. And we certainly don't 
just take words at face value. Believe me, this is not about 
trust.
    And given the history--and Mr. Chairman, you mentioned the 
question of deception--given the history, we are all rightly 
skeptical about whether or not people are ready to make the 
hard choices necessary to live up to this. But we now have the 
best chance we have ever had to rigorously test this 
proposition, without losing anything. At least twice in this 
agreement it is mentioned that nothing is agreed until 
everything is agreed. And that is specific as to the final 
agreement. In addition, where it does talk about the potential 
of enrichment in the future, it says ``mutually agreed upon'' 
at least four times--three or four times--in that paragraph. 
Has to be agreed. We don't agree, it doesn't happen. Every one 
of us remembers Ronald Reagan's maxim when he was negotiating 
with the Soviet Union, ``Trust but verify.'' But we have a new 
one, ``Test but verify.'' Test but verify. And that is exactly 
what we intend do in the course of this process.
    Now, we have all been through tough decisions, those of you 
on the top dais have been around here a long time, and you have 
seen, we all know the kinds of tough, you know, decisions we 
have to make. But we are asking you to give our negotiators and 
our experts the time and the space to do their jobs. And that 
includes asking you, while we negotiate, that you hold off 
imposing new sanctions. Now, I am not saying never. I just told 
you a few minutes ago, if this doesn't work, we are coming back 
and asking you for more. I am just saying not right now.
    Let me be very clear. This is a very delicate diplomatic 
moment. And we have a chance to address peacefully one of the 
most pressing national security concerns that the world faces 
today, with gigantic implications of the potential of conflict. 
We are at a crossroads. We are at one of those really hinge 
points in history. One path could lead to an enduring 
resolution in international community's concerns about Iran's 
nuclear program. The other path could lead to continued 
hostility, and potentially to conflict. And I don't have to 
tell you that these are high stakes. We have an obligation to 
give these negotiations an opportunity to succeed.
    And we can't ask the rest of the P5+1 and our partners 
around the world to hold up their ends of the bargain if the 
United States isn't going to uphold its end of the bargain. If 
we appear to be going off on our own tangent and do whatever we 
want, we will potentially lose their support for the sanctions 
themselves, because we don't just enforce them by ourselves; we 
need their help. And I don't want to threaten the unity that we 
currently have with respect to this approach, particularly when 
it doesn't cost us a thing to go through this process, knowing 
that we could put sanctions in place, additionally, in a week, 
and we would be there with you seeking to do it.
    I don't want to give the Iranians a public excuse to flout 
the agreement. It could lead our international partners to 
think that we are not an honest broker and that we didn't mean 
it when we said that sanctions were not an end in and of 
themselves but a tool to pressure the Iranians into a 
diplomatic solution. Well, we are in that. And 6 months will 
fly by so fast, my friends, that before you know it, we are 
either going to know which end of this we are at or not. It is 
possible also that it could even end up decreasing the pressure 
on Iran by leading to the fraying of the sanctions regime. I 
will tell you that there were several P5+1 partners at the 
table ready to accept an agreement significantly less than what 
we fought for and got in the end.
    Mr. Chairman, you want me to wrap?
    Chairman Royce. If you could, Mr. Secretary.
    Secretary Kerry. Okay. Let me just say to you that the 
Iranians know that this threat is on the table. I do want to 
say one quick world about Israel and Prime Minister Netanyahu. 
I speak to the Prime Minister usually a couple times a week or 
several times. Talked to him yesterday morning, and I am 
leaving tomorrow, and I will be seeing him Thursday night. We 
are totally agreed that we need to focus on this final 
comprehensive agreement. And Yossi Cohen, the national security 
adviser to the Prime Minister, is here in Washington this week 
working with our experts. And we will work hand in hand 
closely, not just with Israel but with our friends in the Gulf 
and others around the world to understand everybody's 
assessment of what constitutes the best comprehensive agreement 
that absolutely guarantees that the program, whatever it is to 
be, is peaceful and that we have expanded by an enormous amount 
the breakout time.
    This first step agreement, Mr. Chairman, actually does 
expand the breakout time. Because of the destruction of the 20 
percent, because of the lack of capacity to move forward on all 
those other facilities, we are expanding the amount of time 
that it would take them to break out. And clearly, in a final 
agreement, we intend to make this failsafe that we can 
guarantee that they will not have access to nuclear weapons. So 
I just simply put the rest of my testimony in the record, Mr. 
Chairman.
    I look forward to your questions.
    Chairman Royce. Well, thank you, Mr. Secretary.
    [Secretary Kerry did not submit a prepared statement.]
    Chairman Royce. And I think we all agree with you; the 
purpose of the sanctions imposed on Iran was to get Iran to the 
negotiating table.
    But I think it is also important to remember the 
perspective that we had about what we would get in those 
agreements at the negotiating table. If you recall, the early 
suggestion was that Iran could basically keep the right to 
import nuclear fuel, but that would then allow the dismantling 
of their nuclear weapons capability.
    And here is the problem, Mr. Secretary, as I said in my 
statement: We have heard the administration say that Iran has 
no right to enrich. But the Iranians this week say they do. And 
the Joint Action Plan indicates that the U.S. would accept an 
Iranian enrichment program.
    Iran, from our standpoint, does not need this technology to 
generate electricity. Clearly, we are prepared to allow them to 
import nuclear fuel. But if they have this technology, it is 
exactly what they do need to make a nuclear weapon.
    So am I reading this right? Is the administration's 
position that while it may not recognize Iran's right to 
enrich, Iran will in practice retain an enrichment program as 
part of the final agreement? That is the question.
    Secretary Kerry. It depends, Mr. Chairman, on the final 
agreement. It is not locked in, no. If you go to the agreement, 
I will read to you from the agreement, the last paragraph says 
that it would involve a mutually defined enrichment program, 
with mutually agreement parameters, consistent with practical 
needs. That is a very important concept. It has to relate to 
whatever it is practically that they might have a reason for 
arguing they need it for, like medical research or whatever it 
is. But that would be very limited. It then says with agreed 
limits on scope and level of enrichment activities and capacity 
and where it is carried out and stocks of enriched uranium for 
a period to be agreed upon. So I have got one, two, three, four 
mutually agreed or agreed-upons. Now, those are going to have 
to be agreed upon. And if they can't be, no, they won't have 
one.
    If it is so limited and so verifiable and so transparent 
and so accountable, and you have all of the attributes of 
cradle-to-grave documentation--one of the things I didn't 
mention to you we got in the first step is access to their 
mining facilities so we can trace how much they are mining. We 
have access to their milling so we can trace the transition. We 
have access to the centrifuge workshops. We have access to the 
centrifuge storage facilities. So we are building the capacity 
here to know exactly what is happening in an unprecedented 
fashion. And I will say, as I said to Foreign Minister Zarif in 
our negotiations, there is no right to enrich in the NPT. But 
neither is it denied. The NPT is silent on the issue.
    Chairman Royce. Well, it is, of course, the most important 
concession that they wanted. And from our standpoint, as you 
know, the goal was, since, as I explained, you are right, if 
they can enrich to 20 percent, they are 80 percent there in 
terms of a bomb. But if they can enrich to 5 percent, because 
of the way technology works, once you master it, if you can 
enrich to 5 percent, you are still 70 percent of the way there 
toward getting a bomb. So the question going forward that we 
have is focused on precisely how we dismantle their nuclear 
weapons program. And that is why we really appreciate this 
dialogue with you today.
    There was an additional discussion that I wanted to have on 
this ``managed access.'' I talked to the director of the IAEA. 
And the inspectors on the International Atomic Energy Agency 
will have certain abilities, managed access as we say, with 
respect to the locations in which the centrifuges, as you said, 
are assembled or where they are produced. But does this include 
access to the military base in Parchin, the military base where 
the IAEA alleged to me that testing for weapons designs takes 
place? And I would just ask you also about another point which 
they have made, which is that Iran is out of compliance with 
respect to their ICBM program, their three-stage ICBMs that 
they are developing. And so what type of access at the end of 
the day are the IAEA really going to possess here?
    Secretary Kerry. Well, Mr. Chairman, let me answer a couple 
of things there, if I can, because it is very important to this 
process. In any negotiation, and you all know this because you 
negotiate around here every day, you can have a wish list, and 
you approach it from a U.N. Security Council resolution point 
of view and say, well, this is where we would like to be. But 
then there is the question of where you can really be. Now, 
without what we have achieved here, Iran would be progressing 
toward its nuclear weapon now. The window would be narrowing in 
terms of its breakout time. Israel would be more at risk if we 
weren't where we are today. That is where we were heading.
    And from Iran's point of view, as they look at it, they say 
to themselves, Well, wait a minute now, there are about 17 
countries in the world that have nuclear weapons that are 
peaceful, and about four or five of them enrich. And why can't 
we? Well, obviously, the answer from all of us is because you 
are out of synch with the IAEA standards, with the NPT, and et 
cetera. But if they came into compliance, what is it that says 
that they then couldn't be able to do it? That is their 
question to us. Now they say to us, Okay, you guys say we ought 
to completely end enrichment, and yet you are not willing to 
give us sanctions relief. To them, the balance in the 
negotiation is if we give up the very thing we are fighting to 
be able to do, then you ought to give up the thing that you are 
using to get us to do it. So their equivalency was we stop 
enrichment, you stop sanctions altogether.
    Now, there isn't anybody here who would have stopped 
sanctions altogether at that point, because we have to build a 
process. So what we did was we got, I thought, a remarkable 
amount. We stopped their program, and we have eliminated the 20 
percent and rolled back their breakout time, enlarged it, while 
we move toward the final negotiation. Now, the final 
negotiation is going to be in conjunction with all of our 
partners. And whatever we do, it has got to make Israel safer. 
It has got to make the world safer. It can't threaten the 
Emirates. It can't threaten Saudi Arabia. It can't threaten the 
region. We all understand this. It has to be a peaceful 
program. We have to know this to a certainty. And it isn't hard 
to prove a program is peaceful if it really is. So we are now 
in the main game. And what we are saying to you is, 
respectfully, that you should give us an opportunity, working 
with you, we will brief you, we will be keeping everybody 
informed, working with our friends to make sure we are all on 
the same page as we go through this process of proof.
    Now, Mr. Chairman, you are absolutely correct, there are 
dimensions of the ballistic missiles that are of great concern. 
And we are well aware of that. And there is the Parchin 
military development facility that is of great concern. The 
fact is that we believe this agreement also opens the door for 
our ability to deal with some of that. And the language 
specifically is the plan says that Iran will work with the IAEA 
to facilitate resolution of past and present issues of concern. 
Past and present issues of concern is formula language for the 
IAEA and Iran in addressing possible military dimensions, 
including Parchin. It also says that in the final step, they 
have to have a resolution of our concerns, which is understood 
to include the military dimensions of the program, which are on 
the table. In addition, the plan says there will be some 
interim steps, additional steps in between the initial measure 
and the final step, including addressing the U.N. Security 
Council resolutions, with a view toward bringing to 
satisfactory conclusion the U.N. Security Council's 
consideration in this matter. The U.N. Security Council, you 
will remember, Mr. Chairman, sought suspension, not 
prohibition. And in effect, we now believe that in this plan 
that we have laid out, Iran is required to address the U.N. 
Security Council resolutions regarding its nuclear program 
before a comprehensive agreement can be reached. And the U.N. 
Security Council Resolution 1929, which is contained in that, 
specifically addresses ballistic missiles. So the answer is, it 
is on the table; it is part of the discussion.
    Chairman Royce. Well, my time has expired. I want to thank 
you. As you know, I am very concerned about this Iranian regime 
being allowed enrichment capability at the end of the day. I 
don't think--since neighboring countries don't have it, I think 
it is a problem that might set off something of an arms race 
among its neighbors.
    But I want to go now to Mr. Eliot Engel of New York for his 
questions.
    Mr. Engel. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    I want to just follow up on the enriching. And I said this 
in my opening remarks, Mr. Secretary. I understand that you 
said that if we force them to stop enriching, they would want 
us to remove the sanctions right away. I want to talk about 
both of those. First, the enriching. I just think if there are 
six Security Council resolutions calling on Iran to stop 
enriching, the least they could do is stop enriching while we 
are negotiating with them. And I don't really think that that 
is too much to ask. And that is one of the things that bothers 
me greatly.
    Secondly, you mentioned Israel. We have all heard from the 
governments of Israel, United Arab Emirates, Saudi Arabia, they 
all regard Iran as an existential threat to them, all three 
governments. And they don't like the deal. So why are the 
countries that seem to be most affected by it, that are closest 
in geography to Iran, that feel an existential threat, why 
don't they like the deal?
    Secretary Kerry. Well, actually, the Emirates put out a 
statement of support for it. I have been to the Emirates 
recently, and they believe that, cautiously, they are 
concerned, but I think they are completely understanding where 
we are heading with this and supportive of it. I stood up with 
the Foreign Minister of the Emirates in Abu Dhabi, and he said, 
I support the agreement and what they are trying to do. I was 
in Saudi Arabia shortly thereafter. I met with Foreign Minister 
Saud al-Faisal, I met with the King and explained to them where 
we are. And they have issued a statement supportive of the 
direction we are going in.
    Now, Prime Minister Netanyahu in Israel obviously had a 
difference tactically. The Prime Minister thought we should 
ratchet up the sanctions and keep the pressure on, and somehow 
they would collapse. We didn't read it the same way. We also 
felt that by just trying to go into the negotiation for the 
final status comprehensive agreement, you would be allowing 
them to continue to grow their program while you were 
negotiating. And that is more like the North Korean model. You 
know, you sort of get into this long, prolonged negotiation, 
but they are progressing while you are doing it. We wanted to 
make sure we could try to stop the program where it is and have 
an assurance then while we negotiate that it can't progress. We 
also thought it was important to show the world whether or not, 
in a first step, they were willing to show good faith in moving 
forward. They have done so. They are stopping. They are doing 
it. Now, they haven't done it yet. We have to implement. Our 
negotiators are right now in Vienna and The Hague, working on 
this. And we hope in the next days that will happen. And we 
have plans to resume the negotiations in short order 
thereafter.
    Mr. Engel. Thank you.
    Let's talk about sanctions. You agree with us that it was 
sanctions that brought Iran to the negotiating table. I believe 
that we need to keep the sanctions pressure on Iran and that 
the pressure track will actually strengthen your hand.
    We have been told by the administration and also in your 
testimony here today that if Congress passes sanctions now, 
even if those sanctions don't go into effect for 6 months or 
would only go into effect if there was a strong breach by Iran, 
that we would cause irreversible damage to our diplomatic 
process with Iran. If that is true then, how can the United 
States send a message to Iran that there will be dire 
consequences if the interim deal does not come to fruition? And 
secondly, why hasn't the administration issued any sanctions 
designations which involve sanctions that are already in place 
since the election of Rouhani?
    Secretary Kerry. Well, Mr. Chairman, I can assure you the 
Iranians are listening to this hearing today. And I can assure 
you they have listened to us in every conversation that we have 
had and in every conversation that our friends have had with 
them. They know we are serious. They know the President is 
serious. They know we are serious about diplomacy, because we 
prefer to resolve this through diplomacy and to reach a 
reasonable accord and to test whether or not President Rouhani 
and Foreign Minister Zarif and the supreme leader want to try 
to move in a different direction. If they do, you should 
welcome that. We would welcome that.
    But we are not naive. We are not sitting here believing 
that because somebody says it to you it is true. You have got 
to work through this process. You have to build trust. You 
know, when Nixon opened China and Kissinger went over and sat 
with Mao Tse-Tung, it wasn't based on trust. They set up a 
process, and they began to build a different relationship. Same 
thing with Gorbachev and Reagan and the Soviet Union. It wasn't 
based on trust; it was based on a process that was put in 
place. So we are approaching this I think realistically, with 
an understanding that these sanctions make a difference. Now, 
they know, they know that if this fails, sanctions will be 
increased. We have said it a hundred times, and you all have 
said it a hundred times. And they know you are yearning to go 
do it. But you don't need to do it. It is actually gratuitous 
in the context of this situation, because you can do it in a 
week if you need to, when we say this ain't working, we need 
your help. And believe me, we will be prepared to do that.
    And you will be partners in this as we go along, because we 
will be sharing, you know, a sense of where we are and what is 
going on.
    So I would simply say to you we also have partners in this, 
Congressman. You know that. I mean, if our partners in Europe 
and China and Russia see us go off and we are hammering in a 
way that, you know, runs contra to the agreements we have made, 
it really is very difficult for us to hold the thing whole. And 
I think--I just think it is not the wisest approach.
    Mr. Engel. Well, I think it could potentially strengthen 
your hand with a good cop/bad cop scenario.
    Secretary Kerry. Well, I appreciate you thinking that. I am 
respectfully suggesting to you that we think our hand is very, 
very strong, and nothing is undone in the sanctions regime. 
They are going to lose $30 billion over the course of the 
next--they normally have--they normally sell 2.5 million 
barrels per day of oil. They are down to a million. Their 
economy is careening. And they know what they need to do. And 
their people's hopes and aspirations have been raised. You saw 
what happened. They came back, and people were excited and 
anticipating the possibility they might have different lives. 
Those aspirations can't suddenly be put back in a can. So I 
think there is a lot that is moving in the right direction 
here. And I think we just ought to try to respect the process. 
If you couldn't put them in place in a week, if it was 
impossible to design them--we will work with you, you can 
design them. We can sit here and be ready to go. We are just 
saying to you, please, give us the opportunity to negotiate 
along the contours of what we have agreed upon.
    Mr. Engel. What about the sanctions designations that are 
already in place?
    Secretary Kerry. They stay in place.
    Mr. Engel. But there haven't been any sanctions 
designations issued since Rouhani's election.
    Secretary Kerry. With respect to what?
    Mr. Engel. With respect to the sanctions that are in place 
if there have been any violations.
    Secretary Kerry. Well, I am not sure there have been. I am 
not aware of one that begged us to put an additional sanction 
in place.
    Mr. Engel. And I know my time is up, Mr. Chairman, but let 
me just ask one final question. You mentioned, Mr. Secretary, 
that $6 billion to $7 billion or $7 billion to $8 billion in 
sanctions relief is being provided to Iran as a result; that it 
is minimal. The rial, we are told, is up about 30 percent since 
the signing of this interim agreement. Has that been taken into 
account when we look at the amount of pressure that we are 
taking, we are moving from Iran?
    Secretary Kerry. Yes, it has been. And we also take into 
account, obviously, the variations in the price of oil, 
sometimes the production. In some times they have had 800,000 
barrels in a month, sometimes they have more, it is about the 
million. There are variations. We have taken the entire curve 
of variations into effect. By the way, the day after this 
agreement was made, the stock market in Israel was the highest 
it has been.
    Chairman Royce. We are going to go now to Ileana Ros-
Lehtinen of Florida.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Secretary, you stated on ``60 Minutes'' that, on a 
nuclear deal with Iran, a bad deal is worse than no deal. Well, 
this deal is a bad deal. I believe that the concessions offered 
to Iran will be the death knell on the sanctions program as we 
know it. This threatens our allies. It threatens our closest 
ally, the democratic Jewish state of Israel.
    Isn't it true that the fissile material is just one aspect, 
but there is also the weaponization to consider and also 
ballistic missiles? This Iran deal does not address these, and 
Iran has announced a significant advancement on its ballistic 
missile program. Why was it decided to leave these aspects of 
Iran's nuclear weapons program unaddressed in the agreement?
    I oppose the administration's acceptance of Iran's 
illegitimate claim to a right to enrich uranium. Iran says that 
this deal does give it that right. I expect the Iranian regime 
to welcome in the entire international community to show that 
it has not violated the terms of the deal, and both the 
administration and the media will be effusive in their praise 
of Iran's fulfillment of the deal. Well, we set the bar so low 
that Iran will probably comply. And we must not be fooled by 
that approach, as Iran can start up the centrifuges. It will be 
too late to stop them. How long would it take for Iran to 
enrich uranium from 3.5 to 90 percent with its current nuclear 
infrastructure with advanced centrifuges?
    I have worked, as you know, over the years to help create 
the Iran sanctions program that we have in place now. I was the 
author of several Iran sanctions bills that have become law, 
including the toughest set of sanctions currently on the books. 
And it is discouraging that many countries are now eager to do 
business with Iran, to get Iranian gas. And we will not be able 
to stop this cash infusion and get sanctions back to their 
current levels.
    Now, Jay Carney suggested that if pursuing a diplomatic 
resolution in Iran is disallowed or ruled out, then we would be 
faced with no other option than war to prevent Iran from 
acquiring a nuclear weapon. This is a false binary choice. It 
is not one or the other. We have been increasing sanctions on 
the Iranian regime for a decade.
    Do you agree with this characterization, and do you believe 
that those of us in Congress who oppose this deal and seek an 
increase in sanctions to force Iran to give up its enrichment 
program, it is not to force Iran to negotiate, it is to force 
Iran to give up its enrichment program, that we are warmongers?
    And lastly, two issues. Regarding Camp Ashraf, are the 
Ashraf 7 being held in Iran or are they in Iraq? And, Mr. 
Secretary, sometimes a handshake is just a handshake, but when 
the leader of the free world shakes the bloody hand of a 
ruthless dictator like Raul Castro it becomes a propaganda coup 
for the tyrant. Raul Castro uses that hand to sign the orders 
to repress and jail democracy advocates. In fact, right now, as 
we speak, Cuban opposition leaders are being detained and they 
are being beaten while trying to commemorate today, which is 
International Human Rights Day. They will feel disheartened 
when they see these photos.
    Could you please tell the Cuban people living under that 
repressive regime that, a handshake notwithstanding, the U.S. 
policy toward the cruel and sadistic Cuban dictatorship has not 
weakened? Thank you.
    Secretary Kerry. Well, thank you very much, Madam 
Chairwoman. Let me begin, first of all, by making clear, my 
staff slipped me a piece of piper that informs me that on 
September 6, the Treasury Department--I see Congressman Engel 
is not here--but the Treasury Department identified a network 
of six individuals and four businesses subject to the Iran 
Sanctions Act, and they did sanction them. So Treasury has done 
at least one instance of sanctioning since then.
    With respect to your opening comment, Madam Chairwoman, 
regarding the death knell of the sanctions, we just have to 
respectfully disagree. And in 6 months the world will know 
whether you are right or I am right or whether you are wrong or 
I am wrong, and we are going to know. I don't agree with you. I 
do not believe it is the death knell of the sanctions, because 
all of our partners are united.
    And we have enormous tools at our disposal. We are the ones 
who control access to the financial system in the United 
States, which is, you know, sine qua non for almost any 
financial transaction in the world. We have huge ability to 
leverage and to have an impact on people. And as I said to you 
earlier, we are going to be all over this. So I have great 
confidence in our ability to go forward.
    Moreover, most companies know that the sanctions are still 
in place and that we are going to be doing this. The visibility 
that has been given creates great uncertainty for them. Very 
few companies are going to go out and try and actually cut a 
contract with Iran if they think in 5 months or 4 months that 
contract is going to be null and void because the sanctions are 
going to be ratcheted up or you might be at war. It is just not 
going to happen. Common sense tells you that. They want more 
certainty before they sign any long-term contracts, and those 
are long-term contract, oil contracts and such.
    Ms. Ros-Lehtinen. If you could answer the Ashraf and the 
Cuba question.
    Secretary Kerry. Beg your pardon?
    Ms. Ros-Lehtinen. If you could answer the Ashraf and the 
Cuba question.
    Secretary Kerry. Sure. The question on Ashraf was, where 
are they?
    Ms. Ros-Lehtinen. Iran or Iraq?
    Secretary Kerry. Well, they are in Iraq.
    Ms. Ros-Lehtinen. They are in Iraq?
    Secretary Kerry. The people.
    Ms. Ros-Lehtinen. The seven hostages----
    Secretary Kerry. Oh.
    Ms. Ros-Lehtinen [continuing]. Taken from Camp Ashraf. We 
have not known where they are.
    Secretary Kerry. I can talk to you about that in classified 
session.
    Ms. Ros-Lehtinen. And on the issue of Cuba and the U.S. 
policy?
    Secretary Kerry. On the issue of Cuba, ladies and 
gentlemen, today is about honoring Nelson Mandela, and the 
President is at an international funeral with leaders from all 
over the world. He didn't choose who is there. They are there 
to honor Mandela. And we appreciate that people from all over 
the world and from all different beliefs and walks of life who 
appreciated Nelson Mandela and/or were friends of his came to 
honor him.
    And I think as the President said, I urge you to go read 
his speech, or if you didn't see it or haven't read it, because 
the President said in his speech today honoring Nelson Mandela, 
he said, we urge leaders to honor Mandela's struggle for 
freedom by upholding the basic human rights of their people.
    Ms. Ros-Lehtinen. And would you say Raul Castro is 
upholding the basic human rights.
    Secretary Kerry. No. Absolutely not.
    Ms. Ros-Lehtinen. Thank you, sir.
    Secretary Kerry. And you know my position on that.
    Chairman Royce. We go now to Mr. Brad Sherman of 
California.
    Mr. Sherman. Secretary, I would like to thank you and 
others in the administration for your hard work and for 
actually enforcing the sanctions laws that we in Congress pass.
    We have got a number of Iran sanctions statutes on the 
book; some have waivers, some don't. With regard to those that 
don't have waivers, can you pledge now that this administration 
will enforce the laws on the books to the best of your ability?
    Secretary Kerry. Absolutely. I think we do.
    Mr. Sherman. I am concerned, because as the ranking----
    Secretary Kerry. Are you talking about the waiver on the 
oil?
    Mr. Sherman. I was just talking about all of the sanction 
laws. Some have waivers, some don't.
    I am concerned, as the ranking member points out, the first 
6 months of this year we had dozens and dozens of individual 
companies sanctioned because we discovered the information that 
indicated that they had violated U.S. sanctions laws. Since 
Rouhani was elected in the middle of this year, one, and you 
have identified it. So we have gone from dozens and dozens to 
one. I am hoping that we are not slow walking things because we 
are so happy with Rouhani.
    I want to thank the administration for recognizing the 
importance of the sanctions bills that Congress has passed. The 
sanctions that the administration lauds now, you opposed, or 
the administration opposed, you weren't there at the time, 
every single one of them then, most significantly the banking 
sanctions----
    Secretary Kerry. That is the virtue of my having voted for 
them.
    Mr. Sherman. Yes. But it is the administration, not just 
any one Cabinet officer that makes policy. And Secretary 
Geithner speaking for the administration at the time said that 
he strongly opposed those banking sanctions and that they might 
actually benefit the regime. And, in fact, all the 
administrations have opposed all these sanctions. They are the 
reason we didn't pass any sanctions 2001 to 2008. The 
administration is the reason we didn't pass any in 2009 or 
2013. And now you are here saying don't do anything now, 
because we will be with you in urging sanctions if this deal 
doesn't go forward.
    My fear is we won't be able to act in a week, because the 
only way we can act in a week is if the administration is with 
us, and every administration has been opposed to every sanction 
since before I got here.
    Now, as to the importance of the sanctions relief that we 
have granted, when international companies know no sanctions in 
2013, no sanctions in 2014, that is enough of a window for them 
to exploit the loopholes in the existing laws. Since the Geneva 
deal, instead of the Iranian economy careening, it is 
rebounding, a 30 percent increase in the value of the rial, 
Chinese oil companies, Turkish Government, Japanese banks all 
saying now is the time to do business with Iran, and the YPO 
group, which has members in all of our districts, announces an 
international business conference in Tehran.
    I was briefed by the administration on this deal, and I was 
impressed a little bit less after I read it, because, Mr. 
Secretary, you say it halts and rolls back the program. The 
fact is they have got 9,000 centrifuges turning now, and they 
will turn throughout, they will spin throughout the term of 
this agreement. So the centrifuges are literally rolling 
forward.
    You have told us that they can't increase their stockpile 
of enriched uranium. Yes, they can. They just have to convert 
it to uranium oxide. Well, that doesn't neutralize, it creates 
a new stockpile of enriched uranium oxide, which can be turned 
into uranium hexaflourine in just a couple of weeks. And the 
Wisconsin Project on Nuclear Arms Control calculates that they 
will, during the term of this agreement, which is really 7 
months, create enough enriched uranium for 1 nuclear bomb.
    Now, the one issue before Congress is whether we should 
adopt sanctions that go into effect in this summer, or instead 
that it is safe to wait. As you point out, we can pass 
sanctions in a week if you are lobbying for them, but if you 
are, as every administration has, trying to prevent them, you 
are asking us to be asleep and do nothing while 9,000 
centrifuges turn and a new uranium stockpile is created.
    And as a practical matter this agreement, it doesn't start, 
the 6 months doesn't start for many weeks. Six months after 
that is late July. And anyone who has looked at the 
congressional calendar knows we will not be able to pass a 
controversial bill opposed by the administration unless we take 
action well before July. Are we in session in August, 
September, or October? Yeah, a couple of weeks.
    It appears my time is about to expire.
    Secretary Kerry. I hope you enjoyed my answer.
    Mr. Sherman. The one thing I would like you to focus on is 
why are you convinced that the 1,600 kilos of uranium oxide 
that Iran will create during this agreement is not a threat? 
And do you disagree that it can be converted to gas very 
easily?
    Secretary Kerry. It can be if you have a conversion 
capacity, and Iran doesn't have a conversion capacity and they 
are not allowed to build one.
    Mr. Sherman. So it takes a couple more weeks.
    Secretary Kerry. Well, no. No, no, no. Congressman, you are 
really setting up a straw man, and it is really not a hard one 
to knock down because there is just no reality to the scenario 
you are drawing.
    First of all, I was chair of the hearings on the Iran 
sanctions and I was working with the administration. The 
administration did not oppose them, they opposed the timing of 
it. They had a timing issue, because they thought they had the 
prerogative to be able to negotiate, as I am now arguing we 
should have. But the Senate, in its infinite wisdom, decided no 
and went ahead and passed them, and the timing was decided for 
the administration.
    Now, I don't know any administration that doesn't like to 
conduct its foreign policy on its terms, and I don't know any 
Congress that doesn't like to, you know, weigh in.
    Now, here is the deal. There is a way for us to get the 
best of both worlds. I have come here representing the 
President telling you that the President is committed, if this 
fails, he is going to want to ratchet up, because we are going 
to have to do what we have to do to make sure they don't get a 
nuclear capacity.
    This is important, though, Mr. Chairman. You have got to 
have a chance to answer some of the questions here. I think it 
is important.
    Chairman Royce. Well, we have given you that chance, Mr. 
Secretary.
    Secretary Kerry. Well, I want to just make this point, 
because it is important to how we could proceed. We are 
committed to asking you for additional sanctions if we fail. We 
will need them. And I am asking you, work with us. We will work 
with you now in support of those. Let's frame what they might 
be, how they might be, and we could certainly be ready. I am 
asking you not to do it now because of the, you know, 
relationship with our P5+1 and the message that it sends. But 
you are wrong when you say that the administration is not going 
to come and ask for them. You are just dead wrong. We are 
telling you we will.
    Moreover, with respect to the facilities that exist or 
anything else, if they started to spin more centrifuges, it is 
clear to us they are not serious. That would be such a flagrant 
violation of this, it would not only invite more sanctions, it 
might invite----
    Mr. Sherman. Well, they are spinning 9,000 now.
    Chairman Royce. Okay.
    Secretary Kerry [continuing]. If they started to spin. But 
they are not allowed to hook up the ones that are in Fordo. 
They have been restricted in that. They are not allowed to put 
additional centrifuges in place. They have 19,000. They could 
be hooking them all up. They are not going to do that.
    But let's say they did. Let's say that they say to hell 
with you, and our inspectors see what they are doing. We have 
the absolute capacity deployed now to deal with that, if we 
have to, from a military point of view, which they know we have 
and will not invite. And we could not only terminate those 
facilities, but we could obviously set back that program for 
some time. Now, it comes with a whole different set of costs 
and different calculations, but that has not been taken off the 
table.
    Chairman Royce. We are going to go to Mr. Smith of New 
Jersey. And I am going to suggest, members, we are going to 
hold to 5 minutes, so ask your question, we will get the 
response and we will move along. Thank you.
    Mr. Smith. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    Mr. Secretary, last spring Congressman Frank Wolf chaired a 
hearing on an American, Pastor Saeed Abedini, who is unjustly 
jailed in Iran. His wife, Naghmeh, testified that the State 
Department had told her that there was nothing that could be 
done. She was shocked and dismayed, but we were all grateful 
that in response to her testimony and her appeal, you issued a 
much welcomed statement on behalf of her imprisoned husband.
    On Thursday Naghmeh will testify before my subcommittee and 
the subcommittee of Ileana Ros-Lehtinen, joint subcommittees, 
and from her advanced testimony she will say,

        ``He has been beaten until the pain has been so great 
        he can't stand. I fear for the worst. Even worse, I 
        fear that our children, Rebekka, who is 7, and Jacob 
        Cyrus, who is 5, may never see their daddy again.''

    Then she goes on to say,

        ``My husband is suffering because he is a Christian, he 
        is suffering because he is an American, yet his own 
        Government, at least the executive and diplomatic 
        representatives, has abandoned him. Don't we owe it to 
        him as a Nation to stand up for his human rights and 
        for his freedom?''

    She goes on to say,

        ``While I am grateful for President Obama's willingness 
        to express concern about my husband and the other 
        imprisoned Americans, including Amir Hekmati and Robert 
        Levinson, I was devastated to learn that the 
        administration didn't even ask for my husband's release 
        when directly seated across the table from the leaders 
        of the government that holds him captive.''

    So my first question would be, is that true? Did we raise 
Abedini's case directly with the Iranians in the negotiations 
on the nuclear issue?
    Secretary Kerry. The answer is that is not true. I 
personally raised the issue with Foreign Minister Zarif when I 
first met him, the very first time. And we have not linked it 
directly to the nuclear issue, because we believe that 
prejudices them, and it also prejudices the negotiation. We 
don't want them to become the hostages or pawns of a process 
that then gets played against something they want with respect 
to the nuclear program; nor do you, I think. We want them 
returned because they are American citizens, because they have 
to be accountable to us for them, and because they deserve to 
be returned.
    Mr. Smith. With all due respect, Mr. Secretary, wasn't 
that----
    Secretary Kerry. It is a fundamental humanitarian basis. 
Believe me, I am not at liberty to go into what is happening on 
it, and that is the difficulty in some of these situations many 
times, because there are back channels and other kinds of 
efforts that are engaged in. But we have never stopped trying 
to secure their release or raising that issue with our 
representative nations that represent us in Tehran, with the 
Swiss, with the Swedish, with others. It is a constant process 
and we are engaged in that effort.
    Mr. Smith. And I do appreciate that, but it seems to me 
that there was a window of opportunity when they wanted 
something and wanted it desperately to raise the issue at that 
negotiating table. Let me ask you this before you answer.
    Secretary Kerry. Well, Congressman, Congressman Smith, let 
me just say something. This opportunity is huge and still 
exists, but we are not going to link them to the nuclear, 
because it prejudices them.
    Mr. Smith. But he is at risk right now of death. He has 
been transferred to an even more ominous prison. He is in a 
cell with known murderers. He woke up with a knife next to his 
face just recently.
    Secretary Kerry. I am happy to sit with you in a classified 
venue, providing it is cleared appropriately, and I can tell 
you what we are doing. But it is an ongoing and constant 
effort.
    Mr. Smith. Do you have expectations that he and the others 
will be free?
    Secretary Kerry. I have hope. I can't speak for what they 
will do or not do. But I am constantly----
    Mr. Smith. Well, the chairman talked about how, if there is 
respect for human rights of their own people, it raises our 
sense of trust, even though you say trust and test. But it 
seems to me that here we have an American----
    Secretary Kerry. I didn't say trust. I said test and 
verify.  Nothing is not based on trust yet, certainly.
    Mr. Smith. But again, it raises even more serious questions 
about their credibility when an American is being tortured and 
we are conducting a negotiation and he is not even--I know he 
is part of it on the side, but not----
    Secretary Kerry. I understand.
    Mr. Smith. It ought to be central.
    Secretary Kerry. Obviously, we have to make some very tough 
decisions about what affects what.
    Mr. Smith. I understand.
    Secretary Kerry. We believe it would disadvantage them.
    Mr. Smith. Who?
    Secretary Kerry. They would become pawns to the process. 
And it could prolong it, could make it more risky or dangerous.
    Mr. Smith. I am almost out of time and I have one other 
question.
    Secretary Kerry. Okay.
    Mr. Smith. I apologize. It disadvantages them according to 
whom? I mean, they are the ones, they are in charge, they don't 
care about public opinion. But there was a Times of Israel 
report that four Iranians were released, including Gholikhan, 
Tajik, Seirafi, and Atarodi. Was that in any way linked in 
terms of the nuclear negotiations----
    Secretary Kerry. No.
    Mr. Smith [continuing]. Either before or after?
    Secretary Kerry. No.
    Mr. Smith. No direct----
    Secretary Kerry. None whatsoever.
    Mr. Smith. None whatsoever.
    Secretary Kerry. No.
    Mr. Smith. Thank you.
    Secretary Kerry. And one last thing just say to you on 
this. Look, we have a lot of problems with Iran. I mean, you 
know, they are supporting Hezbollah, Hezbollah is in Syria, 
they are supporting Syria, Assad. They are purveyors of 
terrorism, as people have described here. The Iranians, you 
know, there was a plot taking place to blow up an Ambassador 
here in a restaurant in Washington. There are a number of 
different serious issues that exist, and they are not tied 
either to this, because the nuclear file is the most critical, 
most pressing, most urgent with respect to Israel, the region, 
and us and the world in terms of proliferation, and it is 
critical to be disciplined and focused and targeted on that 
program and get that under control. And meanwhile, we are 
continuing to put to test their bona fides on all of these 
other issues.
    Chairman Royce. We go now to Mr. Albio Sires from New 
Jersey.
    Mr. Sires. Thank you, Mr. Chairman, for holding this 
hearing today.
    And welcome, Mr. Secretary.
    You know, Mr. Secretary, in your statement you stated that 
there were no guarantees and that you have serious questions 
regarding these negotiations. And obviously we are all 
skeptical for the very reasons you just stated to Mr. Smith.
    My concern, we have this window of negotiations. Who 
determines whether negotiations are going well? Are we going to 
have a scenario where you are going to come back to us and say, 
well, look, we are moving forward, I need another 6 months or I 
need another 3 months? Who determines whether we are making 
progress or not or we are going to cut off the negotiations and 
we are going to come back to the Congress and say, listen, we 
tried, you are committed to the sanctions, let's do this in a 
week?
    Secretary Kerry. Congressman, we will, obviously, the 
President of the United States, my team. We will make the 
initial judgment. But we are accountable to you and to the 
American people through you. So we will obviously have to 
confer, we will come up here. I am sure you will want to hear 
from us somewhere in the middle of this or somewhere in the 
process. And we will, needless to say, brief you in the 
appropriate places and in the appropriate manner. And you will 
join us, I hope, in making that judgment. But, you know, this 
is in all of our interests to get this right.
    Mr. Sires. Do you see a scenario where you are going to 
come back to us and say, look, we need more time?
    Secretary Kerry. You know, I am not going to say that it 
won't happen, but it is not our preference. And my hope is that 
this can be resolved sooner rather than later. My hope is we 
could even move faster than the 6 months. I think there is a 
chance, an outside chance, that that might be able to be 
possible. So I can't tell you today.
    We left a provision that you could extend the 6 months, but 
it has to be by mutual concept. So if we think they are not 
doing it and they want to extend, we obviously will be 
reluctant to. If, on the other hand, we are really making 
progress and we think we are on track, we may come to you and 
describe that to you, and you may concur in the judgment that 
it is worth a few more months or something. My hope is and my 
expectation is that will not have to happen----
    Mr. Sires. Well, Mr. Secretary, I think that will send----
    Secretary Kerry [continuing]. But it could.
    Mr. Sires [continuing]. That will send a terrible message 
if we keep extending these negotiations.
    Secretary Kerry. I said my expectation is it will not 
happen. It could, but I don't expect it. And my hope is that we 
get it done sooner rather than later.
    Mr. Sires. Okay. You know, I keep reading about the resolve 
of the Iranians to get this nuclear program done. And, quite 
frankly, I just don't know if this diplomatic effort on their 
behalf is really serious. Do you sense there is sincerity in 
this, any sincerity in this?
    Secretary Kerry. Whose sincerity?
    Mr. Sires. The Iranians.
    Secretary Kerry. Well, it is not my job to measure 
sincerity. It is my job to lay down a process by which we can 
measure it, and thus far they have indicated they are ready to 
do things that make a difference. But they haven't done them 
yet. So we have to get the implementation moving and we have to 
start moving down those 6 months. I just said to you we are not 
going to go by virtue of words. This is based on actions, so it 
is test and verify. And we need to verify it and put it to the 
test. That is what we are saying to you.
    Mr. Sires. Because I really don't think that they care what 
their people think in Iran. I think this is a regime that the 
leader makes the decisions, and whether the Iranian people are 
happy that we are negotiating doesn't mean anything to them.
    Secretary Kerry. Well, you know, I think your comment sort 
of speaks for itself. The supreme leader is the supreme leader.
    Mr. Sires. Right. All right. Thank you.
    Chairman Royce. Thank you.
    We will go now to Mr. Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much.
    Thank you, Mr. Secretary, for being with us. And I know it 
is a grueling situation to face, but we appreciate you being 
here with us. Rarely do we get a chance to ask you some 
questions, so I have got a few housekeeping questions to ask 
before I go into the issue of the day.
    I am introducing a bill today that will allow 3,000 
refugees from Camp Ashraf and Camp Liberty, now Camp Liberty, 
status, refugee status, and thus will permit them to be enabled 
to come to the United States. Hundreds of these people have 
been slaughtered. They live under constant threat of being 
murdered. We know that. And will this administration be 
supporting my legislation to prevent these people from being 
slaughtered by this pro-mullah regime that we have in Iraq now?
    Secretary Kerry. Well, Congressman, I have gone to the 
lengths of appointing a special representative to work 
exclusively to get the----
    Mr. Rohrabacher. I am just asking about--we have 
legislation.
    Secretary Kerry. Well, I need to see the legislation, but 
in principle, we are trying to find a place for them to go, 
including here.
    Mr. Rohrabacher. But in principle you would agree with 
letting these refugees have status, refugee status, so they can 
come here?
    Secretary Kerry. We are trying to find a place for them to 
go now.
    Mr. Rohrabacher. Okay. So in principle do you agree that--
--
    Secretary Kerry. In principle, I would like to see the 
legislation, but I can't speak for the President on this one 
unseen.
    Mr. Rohrabacher. All right. Thank you. All right. I am 
trying to get the answer, but I understand.
    Mr. Secretary, it has been reported that there was live 
drone footage 2 hours into the attack on our consulate in 
Benghazi. Further, it was reported that there were closed 
circuit cameras on the outer walls of the consulate. And one 
State Department official has been quoted as saying that ``the 
main gate camera revealed large numbers of men, armed men, 
flowing into the compound'' at 9:40 that night.
    We have not seen those videos. First of all, do the videos 
exist? If they do exist, will you make them available to this 
committee?
    Secretary Kerry. I haven't seen any drone video footage, 
but I have seen video footage of the facility itself and I have 
seen those people pouring in.
    Mr. Rohrabacher. Right.
    Secretary Kerry. And we all saw them. We saw them in the 
Senate. I think they were made available to the House, too.
    Mr. Rohrabacher. Okay. So are you aware of any videos that 
have not been made available?
    Secretary Kerry. I am not. No, I am not.
    Mr. Rohrabacher. All right. Thank you.
    Mr. Secretary, again, when we are talking about the issue 
at hand today, we all should recognize that you are trying to 
deal with a challenge, a threat that you did not make and that 
was around while the Republicans were in charge of government 
and they did not succeed. So that being considered, I am going 
to ask you some tough questions, but I do understand that you 
didn't make the problem and you are here trying to do what you 
can, what you believe will solve the issue.
    You know, when you talk about we are not going to trust but 
verify, we are going to test but verify, and then you refer to 
the leader of the government there as the supreme leader, quite 
frankly, that is groveling, but test but verify. The fact is, 
he is not a supreme leader, he is not some democratically 
elected governor of that. He is a vicious man with a bloody 
background, and we are treating him like the supreme leader. 
Isn't that groveling before a group of people who do not 
deserve. Of course they are not going to at that point. Of 
course they are going to think that they have got leverage and 
they can do things if we treat them with that type of respect, 
the same way we would a democratic government.
    Secretary Kerry. There is no equivalency, Congressman. That 
is just his title. It is his name. That is what they treat him 
as.
    Mr. Rohrabacher. Well, that is what they call him. And are 
we necessarily going to treat Adolf Hitler as the fuhrer? This 
is not a supreme leader. This is a man who holds power through 
brute force. And as I say, instead of trust but verify, instead 
of test but verify, it looks like it is grovel but verify, to 
me.
    Secretary Kerry. Congressman, I just don't agree with you 
about the question of test but verify being groveling. The 
point I am making is there is no issue of trust involved.
    Mr. Rohrabacher. All right.
    Secretary Kerry. We are going to protect our interests by 
testing what they are doing.
    Mr. Rohrabacher. I understand the point you are making, 
sir.
    Secretary Kerry. And I don't consider anything that we have 
done here with respect to this to be anything except acting in 
the interests of our Nation and of our friends in the region. 
And I think we are better off today than we were the day before 
we made this agreement, when they were progressing to do 
whatever they wanted in this program. Now they are not. Now 
they are, because of the sanctions, negotiating with us with 
respect to a final agreement.
    Mr. Rohrabacher. We will, look at your proposal very 
closely. Thank you, Mr. Secretary.
    Secretary Kerry. Thank you.
    Chairman Royce. Thank you.
    We go to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. And first I would 
like to thank you for your efforts on behalf of my constituent, 
Robert Levinson, on behalf of his family, who really 
appreciates your personal efforts and those of the State 
Department and so many in government. We hope you will continue 
to press for his release so he can come home safely to south 
Florida.
    I wanted to talk about sanctions a little bit and take some 
issue with your premise that we put sanctions in place to get 
to negotiation. I don't think that is why we put sanctions in 
place. We put sanctions in place to get to negotiation on our 
way to getting the Iranians to give up their nuclear weapons 
capability. That is where we were going.
    And the concern that a lot of us have, I think, is that if 
we don't set some marker--you asked us to work with you, we ask 
the same back--if we don't set some marker that says if there 
is not a deal, and which we thought might come in 6 months, but 
the interim agreement now says the goal is to have it in 12 
months, but if there is not a deal, then these additional 
sanctions that we passed during the summer, when many told us 
not to because Rouhani wouldn't even negotiate if we did, but 
we should put those in place so it is clear what will happen if 
there is not a deal.
    And I do think that we can work with you on this, but no 
one is suggesting that the legislation impose those additional 
sanctions this afternoon. But if it is not 6 months, because 
you need space, then let's figure out what it is. Is it 7 
months? Is it 8 months? At some point why wouldn't it be in our 
interest and the interests of our allies to make clear what 
will happen if the Iranians continue to push and extend and 
extend and there is no deal? Why can't we work together in the 
interest of a negotiating position to help with diplomacy, to 
strengthen diplomacy in order to do that?
    Secretary Kerry. Congressman, we have made it clear to them 
what the implications are of not being successful. They know 
what the stakes are. And we have told them there will not be 
new sanctions of any kind imposed while we are negotiating. So 
if Congress votes for new sanctions, Congress is going off on 
its own, and it raises a question. Most importantly, I am not 
as worried about, you know, how they interpret it as I am 
worried about how our allies, our friends, our partners 
interpret it. They are part of this. And if the United States 
sort of just lumbers off on its own and does its own thing when 
we are working with those partners, they have a right to say, 
you know, we are in partnership.
    Mr. Deutch. They do. They do, Mr. Secretary.
    Secretary Kerry. Well, let me just finish one thing, 
though. You know, our whole policy is that Iran will not get a 
nuclear weapon. So we are not in this for the sake of 
negotiations for negotiations' sake; we are here because those 
negotiations are to prevent them from getting the program, 
obviously. I finished the sentence. But, you know, if we don't 
negotiate, I think, in a way--I don't want to give them an 
excuse or any other rationale for upping the ante, changing 
the----
    Mr. Deutch. Mr. Secretary, I am sorry, we are limited in 
time.
    Secretary Kerry. Let me ask you something. Let me ask you 
something.
    Mr. Deutch. I agree.
    Secretary Kerry. They are listening to us now. They know 
there are going to be more sanctions. We have told them 100 
times. What is wrong with our working together to tee up what 
we think might be appropriate if there is failure and then do 
it?
    Mr. Deutch. Completely agree. I completely agree. We should 
tee it up and we should tee it up with a date certain.
    Secretary Kerry. But teeing it up doesn't mean passing it 
here now.
    Mr. Deutch. We should tee it up with a date certain. And if 
we all agree that at some date----
    Secretary Kerry. But you can't have a date certain until 
you know how your negotiations are working. You don't want to 
make a presumption.
    Mr. Deutch. My concern is we have heard the argument before 
that sanctions undermine international unity. When the Senate 
voted unanimously on the Iranian Central Bank sanctions, it was 
the same day that the Department of Treasury sent a letter to 
every Senator telling them not to vote for it. Not only did it 
pass unanimously, but it was vital in changing Iran's nuclear 
calculus and the world's approach to Iran, because of the 
decision that they had to make about whether to do business 
with Iran or whether to do business with the United States. So 
I would like to work together to try to tee something up, as 
you said.
    I just have one other quick question. You said that oil 
sanctions continue as they are in place with no diminishment of 
oil sanctions, and yet the sanctions relief provides that a 
million barrels per day is now a fixed amount during the 6 
months that the Iranian can export. And yet under our existing 
sanctions, there needs to be a significant reduction in the 
amount that they can export. So it seems to me there is a 
contradiction.
    Secretary Kerry. Well, what we did, Congressman, is we put 
in place a pause for the few nations, China, India, South 
Korea, Japan, there are a number of nations who are working 
with us very closely in sanctions enforcement who have been 
reducing their consumption of oil now over this period of time. 
And they have reached a point where it is very, very difficult 
for them to further reduce without serious impact on global 
economy and their economy. So in effect we worked a way that we 
were able to release some of the money against giving them a 
pause for these 6 months because of that difficulty.
    Now, that is not a change in the sanctions regime, it is 
simply a pause in its application, but it still applies, and it 
will apply after the 6 months are over if we don't have an 
agreement.
    Chairman Royce. We are going to need to go to Mr. Joe 
Wilson of South Carolina.
    Thank you, Mr. Secretary.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you, Ranking Member Eliot Engel, for your 
leadership, too.
    Mr. Secretary, thank you for being here. But you can see, 
this is a bipartisan concern. I think there are excellent 
questions on both sides, because many of us believe that the 
policies of this administration are putting the American people 
at risk, our allies at risk, Israel, the Persian Gulf states, 
Saudi Arabia. In fact, with the missile capability that Iran 
has, our NATO allies, Turkey, Bulgaria, Greece. And so there 
are just great concerns that we have.
    And I truly agree with Prime Minister Benjamin Netanyahu 
that this agreement is a mistake. Additionally, I agree with 
Ambassador John Bolton. In the Weekly Standard he wrote,

          ``This interim agreement is badly skewed from 
        America's perspective. Iran retains full capacity to 
        enrich uranium, thus abandoning a decade of Western 
        insistence and Security Council resolutions that Iran 
        stop all uranium enrichment activities. Allowing Iran 
        to continue enriching, and despite modest (indeed 
        utterly inadequate) measures to prevent it from 
        increasing its enriched-uranium stockpiles and its 
        overall nuclear infrastructure, lays the predicate for 
        Iran itself to fully enjoy its `right' to enrichment of 
        any `final' agreement. Indeed, the interim agreement 
        itself acknowledges that a `comprehensive solution' 
        will `involve a mutually defined enrichment program.'
          ``In exchange for superficial concessions, Iran 
        achieved three critical breakthroughs. First, it bought 
        time to continue all aspects of its nuclear weapons 
        program the agreement does not cover (centrifuge 
        manufacturing and testing; weaponization research and 
        fabrication; and the entire ballistic missile program). 
        Indeed, given that the interim agreement contemplates 
        periodic renewals, Iran may have gained all the time it 
        needs to achieve weaponization, not for simply a 
        handful of nuclear weapons, but dozens more.''

    I also agree with Democratic Senator Robert Menendez of New 
Jersey. In The Hill last week it was pointed out that,

        ``He argued that it was harsh sanctions that have 
        brought Iran to the negotiating table in the first 
        place. He added that he found many additional flaws 
        within the agreement besides its approach on 
        sanctions.''

    Mr. Secretary, again, we see how bipartisan this is, and I 
am just really pleased. This is nothing personal. The American 
people are concerned, our allies are concerned. Clearly 
sanctions make a difference.
    What are the baselines or red lines or markers of success 
that you will be looking for in 6 months?
    Secretary Kerry. Very simple. Iran's inability to have 
ever, without our knowing it with sufficient amount of time, a 
huge amount of time that we could do something about it to stop 
it, any kind of weaponization or nuclear weapons program, 
bottom line.
    Look, you just said decades of resolutions that they 
abandon enrichment. What did they get you? What did those 
decades of resolutions get you?
    Mr. Wilson. They have gotten the people of Iran hopefully 
to the point--this is the great culture of Persia--hopefully 
for the people of Iran an opportunity for them, the Green 
Revolution, to finally succeed.
    Secretary Kerry. Congressman, that is a wishful thought, 
but meanwhile their program continues to grow; meanwhile, 
Israel is more at risk. In 2003, my friend, they had 164 
centrifuges. Now they have 19,000. You know what Zarif said to 
me? You know what your sanctions have gotten you? Nineteen 
thousand centrifuges.
    Mr. Wilson. But also that is clearly indicating that they 
are not dealing in good faith, that they cannot be trusted, and 
even with test but verify.
    Secretary Kerry. Congressman, nobody has said to you, I 
never sat here and said, I have never said the word good faith 
in terms of what they are doing. Everybody knows that you don't 
build a secret hole in a mountain to have centrifuges and 
enrich if you are operating in good faith. Everybody knows you 
don't refuse to sign the additional protocols. Everybody knows 
you don't deny the IAEA access. Everybody knows you don't go up 
to 19,000 centrifuges. We all understand that.
    The issue here is, what are we going to do about it so that 
we don't have a sudden breakout that threatens Israel and all 
the countries in the region and ourselves? Now, the truth is, 
you went further, you said something like they bought time to 
continue all aspects of weaponization.
    Mr. Wilson. Yes.
    Secretary Kerry. No, they haven't, because in order to 
weaponize you have to have highly enriched uranium, and under 
our plan they are going the opposite direction. They are 
destroying their highly enriched uranium.
    Mr. Wilson. And it appears to me to be benign observation.
    Secretary Kerry. We would know, Congressman, we would know 
immediately----
    Chairman Royce. We are going to go now to Mr. Ami Bera from 
California.
    Mr. Bera. Thank you, Chairman Royce.
    And thank you, Secretary Kerry, for joining us today.
    You know, we don't agree on a lot in this town, but I would 
say certainly on this committee, throughout Congress, and, I 
believe, the administration, and to quote your words, we all 
agree on one issue, which is Iran must not and will not acquire 
a nuclear weapon. I think there is general consensus on that.
    On Saturday the President, when being asked at the Sabin 
Institute what he envisioned the final agreement might look 
like, he talked about an agreement that would let Iran enrich 
enough nuclear material for energy, but enough in the way of 
restrictions to assure the United States and Israel that it 
could not produce a nuclear weapon. I think I am quoting that 
correctly. When asked the chances of success of getting to that 
agreement, to quote the President, I wouldn't say it is more 
than 50/50, but we have to try.
    I think we agree that we should try, because the outcome of 
failure is probably one that we don't want to see. But given 
Iran's history, you know, many of us in this body, on this 
committee, and myself personally, remain very skeptical. And 
certainly, as you approach the negotiations, I think you have 
expressed a healthy set of skepticism as well. But again, we 
have to try. Any agreement that we enter into has to--and, 
again, I think to quote you--it has to halt their progress and 
roll it back, and it has to lengthen the time to nuclear 
breakout.
    So with this model of test and verify, how can we guarantee 
that, you know, they aren't continuing to enrich, they aren't 
continuing to enrich above the 3 percent threshold or above a 5 
percent threshold?
    Secretary Kerry. It is certainly a good question.
    Mr. Bera. And within the context, do they understand how 
skeptical members of this body are and how, you know, if there 
is any backsliding, you know, we have already in a unanimous 
way supported increased sanctions? Over in the Senate, you 
know, they are probably very close to, you know, if there is 
progress, how close they are.
    Secretary Kerry. How close they are?
    Mr. Bera. How skeptical we are within this body about their 
intentions.
    Secretary Kerry. Well, look, the answer is that the purpose 
of our first step is to know with certainty what they are 
doing. And they have said to us, I mean, that is part of their 
proffer to us, if they say it is going to be a peaceful 
program, they say we will allow you unlimited access, we will 
allow restraints, we will make these things happen. And that is 
sort of what we have to put to the test now.
    Now, we will now have access to this secret underground 
facility. We haven't had that. That is a big deal. We will now 
have access to Natanz and we will know what they are doing 
there. We will have sufficient access to the heavy water 
reactor.
    Now, as we go down the road here, there are going to have 
to be built in very significant intrusive verification 
mechanisms so that we know to a certainty. When I say to a 
certainty, you know, Prime Minister Netanyahu is going to sit 
there and say to us, and others, King Abdullah of Saudi Arabia, 
the Emirates, you know, Mohammed bin Zayed, they are going to 
look to us and say, are we really protected? And we have a 
responsibility as an administration to negotiate an agreement 
where we can come to all of you and withstand appropriate 
scrutiny of what the framework of this agreement is. Does it 
answer the question that you know what they are doing? Does it 
give you adequate insight ongoing? Is it possible for them to 
somehow be cheating on you and you don't know it? Is there a 
way that you can, you know, failsafe guarantee that there is no 
hidden enrichment taking place? Is there a guarantee that you 
are able to say this program is, to a certainty, a peaceful 
program?
    Now, as I said, there are other countries that engage in 
peaceful programs, and we have inspectors and inspection and a 
level of intrusion. It will take Iran a period of time, 
obviously, where that is going to have to be greater for them. 
Why? Because of the record here, because of the history that 
has raised these sanctions to the level they are, that has 
brought the global community together in this effort. And it is 
up to Iran really to decide how fast they want to prove this 
and how far they are willing to go to make it clear that it is 
certain. If it isn't certain, we have a problem.
    Chairman Royce. Mike McCaul of Texas.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today.
    As President Kennedy once said, let us never fear to 
negotiate, but let us not negotiate out of fear. As an 
American, I want to wish you my heartfelt, sincere wish that 
your negotiations are successful. I think every American wants 
that. I think that the stakes you are dealing with, the 
national security stakes have never been higher than they are 
with Iran, and from a national security, homeland security 
standpoint as well.
    I have some concerns about this deal. We have worked on 
these sanctions for a decade. We have gotten to the point where 
we can possibly negotiate. I sent a letter to Senator Reid 
signed by 70 Members of Congress to continue and vote on the 
sanctions bill that we passed by 400 votes in the House so that 
we could strengthen your hand, strengthen your leverage in 
these negotiations.
    My concern is that this deal violates six U.N. Security 
Council resolutions to give Iran the right to enrich; that it 
sends a message to our partners in the Middle East that it is 
okay for a state sponsor of terrorism to enrich, but not for 
them. I am concerned that it could spark a nuclear arms race in 
the Middle East if not done correctly. I am concerned that it 
deals nothing with the technology aspects, as we know they have 
the capability to hit Israel and Europe with its missiles 
currently, and the Pentagon projects that they have ICBM 
capability of hitting the United States by 2015. And I think 
most disturbingly, Mr. Secretary, that President Rouhani just 
said this week that Iran's centrifuges, in his words, ``will 
never stop spinning.''
    Now, I have talked to officials in the Bush administration 
who claim that one of the biggest mistakes made was North 
Korea. I think Iran is playing the North Korean playbook, if 
you will, and also trying to play the United States.
    As Homeland Security chairman, I am concerned about $7 
billion of relief without any assurance that that money will 
not be used for further terrorism and will not be used to 
further a nuclear weapons program. I think that we should 
negotiate, but I believe that lifting sanctions should not be 
done until they have dismantled their nuclear program. In other 
words, Mr. Secretary, are you willing at the end of the 6 
months, in the final deal, to say, look, we are willing to lift 
the sanctions when you stop enriching uranium?
    Secretary Kerry. Well, let me speak for a minute to the 
question of the never stop spinning the centrifuges. If they 
are, you know, less than 1,000 or 500 or whatever they are, 
they may never stop spinning them, but they are very limited in 
what they are going to be able to do.
    The outlines of this have to take shape now, and we are 
very clear. This agreement, as I read earlier to you, 
envisions, and they have accepted this, envisions severe 
restraints, a mutually defined program with mutually agreed 
parameters consistent with practical needs. What are the 
practical needs? To have some medical research, maybe; to feed 
enough fuel into a legitimate power program, which may be done 
in consortium with other people with intrusive knowledge of 
what is going on as a result? I mean, there are a lot of things 
here yet to be filled out in this.
    So the answer is, at the end of this, I can't tell you they 
might not have some enrichment, but I can tell you to a 
certainty it will not be possible for them to be able to turn 
it into a weapons program without our knowing it so far in 
advance that all the options that are available to us today to 
stop it. Let's say we weren't here talking about this and they 
are proceeding down the road and we came to you and said, hey, 
we have got to stop it the only way we know how. That is still 
going to be available to us, only it is going to be available 
to us with much greater foresight, much greater knowledge of 
what is happening, and much more restraint on whatever their 
program is between now and then. That does make Israel and 
Saudi Arabia and the Emirates and Egypt and all the other 
countries concerned much more secure. It makes us more secure.
    Mr. McCaul. I think you would have more confidence from 
Israel, I think, and Members of Congress if you came back in 6 
months and said, you know, they can have a peaceful program, 
but not enriching uranium inside Iran, and that can be done by 
providing that enriched uranium to them outside of Iran. I 
would urge you to pursue that.
    Secretary Kerry. That deal was on the table a number of 
years ago, but that deal, I am afraid, has probably been lost.
    Chairman Royce. The gentleman's time has expired. We go to 
Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    Mr. Secretary, when is the last time we had a negotiated 
agreement of any kind with Iran?
    Secretary Kerry. I think 10 years ago there was some 
restraint on some level of their program.
    Mr. Connolly. Kind of an infrequent phenomenon.
    Secretary Kerry. That was the first time. Well, we haven't 
really talked to them face to face in 35, 40 years, whatever it 
is, since 1979.
    Mr. Connolly. Some of the critics of this agreement, 
interim agreement, frame it as----
    Secretary Kerry. Let me reframe that. There have been a 
couple of meetings where people have talked, but there has been 
no negotiation of this kind.
    Mr. Connolly. No agreement.
    Some of the critics would have one believe that an 
alternative to what you and your team, working with our allies, 
have hammered out here really could be improved upon and 
actually made into a comprehensive agreement. Why have an 
interim confidence-building agreement when really the only 
agreement that counts is the complete dismantlement of existing 
stockpiles, sites, processing facilities, and the like? And 
that has come from some friends, or so-called friends, who have 
criticized the interim agreement. I wonder if you could comment 
on that. Why didn't you get a comprehensive agreement that 
meets all of our concerns?
    Secretary Kerry. Well, it is not an interim agreement. Let 
me frame this very carefully for everybody. It is not an 
interim agreement. It is a first step toward a comprehensive 
agreement. And why did we do that? For the simple reason we 
wanted to make our friends and ourselves safer. And if you 
simply sat there and negotiated toward the comprehensive 
agreement, then you are getting sucked into the North Korea 
syndrome where you are having six parties who are negotiating 
while they develop their program, and then they go explode 
something and it is too late. We definitively did not want to 
fall into that trap. So we insisted on trying to get a step 
where we could hold things where they are while we put to test 
their sincerity and willingness to do the whole thing.
    Now, if they are willing to do the whole thing then we have 
lost nothing, and if they are not willing to do the whole thing 
we have not allowed them to progress to a point where we put 
people at greater risk. That is what I think makes this a 
smarter approach.
    Mr. Connolly. Mr. Secretary, you talked about inspections. 
What is our current capability in terms of inspections? Can we 
go in every day?
    Secretary Kerry. No.
    Mr. Connolly. Or any day into Iran and inspect what they 
are doing?
    Secretary Kerry. No, we can't. We can't at all. The IAEA is 
allowed to get into some facilities on an, I think, once a 
week--they can get in to the two facilities we are now going 
into daily, and they have been able to go into Arak, I think, 
on a sporadic basis. I think it is about once a month.
    Mr. Connolly. And the agreement that you all have, have 
negotiated, allows daily inspections?
    Secretary Kerry. Daily.
    Mr. Connolly. On all of the sites we are concerned about?
    Secretary Kerry. No. Daily on Fordow, daily on Natanz and 
monthly on Arak, may even wind up being a little more monthly, 
but it is definitely monthly.
    Mr. Connolly. So significant change in our capacity to look 
at and view what is going on.
    Secretary Kerry. Well very much so. And in addition to 
that, we have access to their centrifuge storage facilities, 
their centrifuge workshops, production facilities, and we have 
the plans that will be given us with respect to Arak. So we 
have much greater manifestation of a kind of willingness to 
open up and put this to the test.
    Mr. Connolly. You know, it is an adage in negotiations, Mr. 
Secretary, that you want to try to let it be a win-win, not an 
``I win, you lose'' kind of situation. And often that requires 
face-saving measures to allow some of us to step back from the 
brink. What is in it for Iran? What most motivates Iran to want 
to, A) reach this agreement, and B) reach the ultimate part of 
this agreement?
    Secretary Kerry. Well, I think Iran mostly wants to get out 
from under the sanctions ultimately because their economy is in 
shambles. Their people are hurting, and there is enormous 
pressure on President Rouhani to deliver. You recall that 
Rouhani was not the choice of the supreme leader, that Rouhani 
was really a reflection of votes that were cast, and it was a 
surprise. And then he promised the people of Iran in his 
election campaign that he was going to deliver change. He was 
going to try and reach out to the West, change the 
relationships and improve the economy. And I think that is 
really what has been driving them.
    Chairman Royce. Mr. Ted Poe of Texas.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary. I want to make it clear that I do 
not question the motives or the interest that you have and the 
administration has in doing what is best for the United States. 
I really believe that that is what you want to do is make the 
world safer for us and everyone else.
    On this, particular agreement, and the proposal, I 
disagree. It seems to me that we are giving away the farm and 
the mineral right, as well. It seems to me also that rather 
than make them dismantle their nuclear weapons program, we are 
just freezing the program, which could be thawed out at any 
time down the road.
    And these are my concerns about Iran and this situation, 
and then I am going to have two questions if I don't talk too 
long.
    The first concern, of course, is their continuing 
development of intercontinental ballistic missiles. When I met 
with Prime Minister Netanyahu in Israel a couple weeks ago, he 
said that they are not developing those ICBMs for us, Israel, 
they can reach us with what they already have; they are 
developing them for you, United States.
    And so I am concerned about that. They continue to develop 
intercontinental ballistic missiles. It seems that they would 
want something on the tips of those intercontinental ballistics 
down the road, like weapons.
    The second concern are the terror groups that they sponsor 
all over the world, in most places that most Americans have 
never even hard of: Hezbollah, of course, their activities not 
only in the Middle East but in other parts of the world; the 
Quds Force, IRGC. They are causing mischief, as you know, 
everywhere including in Syria, trying to support a rogue 
government there as a puppet state maybe for Iran.
    Mr. Rouhani is a smooth talker, in my opinion. He is 
different from Ahmadinejad, who was a flamethrower, a bomb 
thrower, with his rhetoric, but he seems to continue to hang 
his own people and smile in the process of that. And, of 
course, there is always the situation that we continue to talk 
about because it hasn't been resolved of the MEK, the dissident 
group, now five attacks on them. No one has been brought to 
justice in the Iraqi Government and criminals haven't been 
brought to justice.
    The latest one--excuse my partner here--when they were 
attacked on September 1st, the murders occurred in Iraq; 50 
people were murdered. Many of them murdered while they were 
wounded in the different locations, tracked down and murdered. 
I believe that Iran was behind this attack. And, of course, no 
one has been held accountable, not Iran, not the Iraqis, and 
not the criminals themselves. And there are some other 
examples.
    My question is this: Big picture, has the supreme leader 
changed his position that Iran wants to eliminate Israel and 
Iran wants to eliminate the United States?
    Secretary Kerry. Congressman, let me begin by saying to you 
that I agree with you on each of the concerns that you have 
expressed.
    There is no question but that the ICBM missile program of 
Iran is of serious concern, and we have, we believe, inserted 
language in the agreement and an understanding in the agreement 
that that is very much one of our concerns going forward is the 
weaponization.
    Likewise, the terror, support for terror, I raised it 
earlier, and I will let the record just speak to that.
    With respect to the stated positions, public positions of 
Iran and its rhetoric, no, it hasn't changed, and it is very 
inflammatory and very threatening.
    Mr. Poe. Excuse me, Mr. Secretary, because I just have 1 
minute left. Do you believe it is still the goal of the supreme 
leader to destroy Israel and destroy the United States?
    Secretary Kerry. Well, you know, when you say, do I 
believe, believe, that that is----
    Mr. Poe. Well, do you think, do you believe, what do you 
think about that position? He states that.
    Secretary Kerry. I think their rhetoric is dangerous and 
threatening and, you know, incredibly counterproductive and 
damaging to any potential rational relationship but----
    Mr. Poe. Reclaiming my time. I want to reclaim my time, Mr. 
Secretary. I asked the question.
    Secretary Kerry. But, my but is----
    Mr. Poe. I am reclaiming my time. My other question is 
this, Mr. Secretary. If Iran gets nuclear weapons, will then 
Saudi Arabia, Turkey and Egypt also then rush to get nuclear 
weapons as well?
    Secretary Kerry. If Iran got a nuclear weapon, there would 
be an arms race in the region for certain, which is one of the 
reasons why they are not going to get a nuclear weapon.
    Mr. Poe. Thank you, Mr. Secretary.
    Secretary Kerry. I want to finish----
    Mr. Royce. Absolutely, Mr. Secretary. Go ahead.
    Secretary Kerry. I just want to finish that there are lots 
of people in the world who use outrageous and outlandish 
rhetoric, and they play to their street, and they play to their 
constituency, and they have no means of actually implementing 
what they are saying. But we take seriously the threat of Iran 
and the potential of a nuclear weapon. And that is why the 
centerpiece of the President's foreign policy is they will got 
not get a nuclear weapon while this President is President of 
the United States.
    Chairman Royce. Juan Vargas of California.
    Mr. Vargas. Thank you very much, Mr. Chairman.
    And thank you, very much, Mr. Secretary, for being here.
    I want to premise my remarks by saying I have nothing but 
the highest respect and regard for you personally and 
professionally. In fact, one of my biggest disappointments 
politically is that you did not become President. We worked 
very hard in California for you, and I think you would been a 
magnificent President, so I am not a so-called friend; I am a 
believer.
    However, when it comes to this deal, I am completely 
against it. I do think it is naive, and I don't think it makes 
us safer, unfortunately, and I don't think it makes our allies 
safer, especially Israel. Instead, I agree with those that say 
that sanctions were working but that we didn't ratchet them up 
enough, that we should have tightened them down even more.
    So the choice becomes whether the Iranians decide that they 
want a functioning economy or they want a nuclear weapons 
capability, a weapons program. I think we need a corollary to 
your axiom that nothing is agreed until everything is agreed, 
and instead, we should say that we won't agree to anything 
until everything is agreed. We need that comprehensive deal 
first.
    And you said, has Iran changed its nuclear calculus? We 
don't know; we should be skeptical. I am not skeptical. I am 
not skeptical at all. I don't think it changed its calculus. I 
think it continues to want a nuclear weapons program.
    I do want to give you plenty of time to answer those 
questions so I won't go all the way until there are 2 seconds 
left and then say, Mr. Secretary, would you like to answer 
those 50 questions? But I do want to know, it seems to me to be 
naive, to be frank, on its face.
    Secretary Kerry. Well, first of all, Congressman, I am 
really pleased that you think I would have made a good 
President, and I appreciate your support in that effort, and I 
hate to disappoint you that I have come up with something in 
conjunction with the administration and our efforts that you 
think is naive.
    I think it is anything but naive, anything but. And I think 
that for many reasons. I have been thinking about and working 
on the Iran file, so to speak, for a lot of years. And there 
are a lot of people who have a different calculation about what 
Iran might or might not want to do. It is all well and good to 
sit here and theoretically say, ratchet up the sanctions, and 
you will drive them in to a place where they will crush. But do 
you know what? The Russians and the Chinese won't be with you 
doing that. And ultimately, the Europeans might not be either, 
because as you ratchet them up and they think it is 
unreasonable based on their willingness to explore the 
diplomacy, you lose them, too. And then guess what you have 
done? You have actually undone the sanctions, not reinforced 
them.
    Let me go a step further. There are a lot of people in the 
intel community who will sit and tell you--and I urge you to 
get briefed on it--who will tell you that their whole school of 
thought in Iran, the hardliners, who welcome the idea that the 
United States might whack them because they think they will be 
heroes in the street, and they think they will be true to the 
revolution, and they think that, as a result, they will 
actually be stronger as a regime. And there are many people who 
believe that if the regime got into real extremis on the 
economy, what would happen is the supreme leader will say, 
Well, I am not surrendering. We are not ever going to surrender 
to the Great Satan. Now we are going to go for the weapon 
because it is the only thing we can do, and we will dig deeper, 
and we will go more secret, and we will take whatever it takes, 
but we are going to get it because that is all the United 
States of America understands.
    Now that is an alternative theory to this notion that you 
can just go out there and raise your sanctions ad infinitum and 
you are going to win. We are in a good place now to negotiate. 
We are at a level of reasonableness and capacity to perhaps get 
an agreement. Now maybe we won't get the agreement, and we will 
have to do the other thing anyway.
    But you know, one of the things I learned a long time ago 
is if you are going to take a nation to war, you better have 
exhausted all the possibilities of trying to get a peaceful 
resolution before you do it. And we are doing that now. We are 
going through the testing and testing to see whether or not 
they are serious, and if not, we have all the options available 
to us.
    But there is nothing naive about what we are doing. It is 
calculated, it may be wrong, you may find that it is a 
miscalculation, but it is not miscalculation based on naivete. 
We understand the dangers. We understand the risks. We 
understand how critical this is and how high the stakes are. 
And I believe, absolutely, no question in my mind, if we were 
just negotiating and pressing further, we would be inviting a 
prolonged process, which would drive them to want to get the 
weapon even more, and then you would be in a place where you 
might get to a negotiation but they are even closer to having 
the weapon than they are today. Much more dangerous.
    Mr. Vargas. In my last 8 seconds, I pray you are right. And 
again, I encourage you. I think you are a man of great courage, 
and I hope the best for you. Thank you.
    Secretary Kerry. Thank you.
    Chairman Royce. Matt Salmon of Arizona.
    Mr. Salmon. Thank you, Mr. Secretary.
    I have three questions, and they all deal with the issue of 
accountability, and I am going to ask the three questions, and 
then I will turn the time over to you.
    It is an alarming fact that this agreement that you struck 
with the Iranians gives them access to $7 billion in cash. Can 
you assure the American people that not one single dollar of 
that new money coming into Iran is going to be used to kill one 
American soldier?
    The second question is that I don't feel like the Obama 
administration has a stellar track record on the issue of 
accountability. From Benghazi, NSA, AP, IRS to Fast and 
Furious, these are all dismal examples of where we still don't 
have answers to why they happened or who is ultimately 
accountable. So where does the buck stop with this new deal if 
Iran doesn't work like it is promised? Are you going to held 
ultimately accountable or the President or who in the 
administration?
    And finally, continuing on that theme of accountability, 
the administration claimed to not be in negotiations with Iran 
when they in fact were. The State Department has admitted that 
Victoria Nuland misled reporters when, in February, she flatly 
denied the existence of direct secret bilateral talks with 
Iran. It turns out your department intentionally misled the 
American people about these negotiations taking place behind 
closed doors.
    So how can we have the confidence that the information you 
are giving us now is on the level, particularly since the 
Iranians clearly have a different interpretation of the 
agreement than you do?
    Those are my questions, and I am very interested in your 
answers.
    Secretary Kerry. I honestly I would have to go back and 
check. I became Secretary of State I think February 1st. I am 
not--I am not sure what was said then or not said exactly or 
what the state of play was, but let me find out.
    With respect to accountability, I am hanging out there. I 
will be accountable. I have absolute confidence that you will 
hold me accountable. As I said to the chairwoman a moment ago, 
I said I don't think the sanctions regime will come apart; she 
says it is the death knell of it. We are going to know in a few 
months. So I will be accountable.
    Mr. Salmon. As to my very first question, with the new 
money that they are getting--and I will take at face value the 
amount that you have speculated $7 billion--with that new money 
coming into the Iran, can you assure the American people that 
not a dollar of that money is going to be used to kill an 
American soldier?
    Secretary Kerry. Congressman, I wish I could give you that 
kind of an assurance, but I have no ability to tell you exactly 
what fundibility there is in money in Iran or where the budget 
goes or what happens. My prayer is that no soldier will be 
killed as a consequence of anything that Iran chooses to do. 
And our hope is that, as a consequence of this process, maybe 
we can get at some of those other issues that are very 
significant between our two countries.
    Mr. Salmon. Finally, I think this has boiled down to a 
disagreement of whether or not ultimately we want them to be 
able to continue any kind of a nuclear program within Iran 
versus being able to go forward and not have any kind of a 
nuclear program.
    Secretary Kerry. When you say ``nuclear,'' do you mean 
power program or power plant?
    Mr. Salmon. Yes, any kind of a nuclear program, any kind of 
enrichment whatsoever. They can get all the nuclear material 
that they need for power by purchasing that from other 
countries. They don't need to be able to enrich that 
themselves.
    And the way I look at this deal, and I understand there are 
a lot of components, but you mentioned earlier in your initial 
remarks that one of the big successes of this interim deal or 
6-month deal is that they have to waylay their 20 percent 
enriched uranium. But that is very insubstantial. It is a small 
quantity. They have a far larger quantity of 3 to 5 percent 
enriched materials, and it doesn't take a lot to get to that 
next level. I think we all understand that.
    And so it seems like a large--it seems to me like a great 
deal to get a small quantity of 20 percent enriched uranium for 
$7 billion bucks.
    Secretary Kerry. Well, Congressman, if they don't have the 
ability to enrich it, and they can't during this--they are not 
allowed to put in any enrichment facilities, any additional 
facilities. They are not allowed to change that stock. So it is 
relative. If you think it is not worth for 6 months trying to 
negotiate a comprehensive deal while you hold their program 
where it is, then you make your judgment. We believe it is.
    And, you know, we have proven in the last years, as we went 
from those 164 centrifuges to 19,000, what you get for not 
talking. You get closer to a bomb. So we believe it is 
important to try to sit down and see if we can resolve this.
    Chairman Royce. We go now to Mr. David Cicilline, if we 
could, of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here, and thank you to 
the administration for its briefings and for the important 
information you have shared with us today and thank you for the 
good work that you are doing.
    I was very pleased to hear you say and each time the 
President has spoken about it reaffirmed our commitment to 
ensure that Iran not be permitted to develop a nuclear weapon. 
And I think when people ask the question whether this deal make 
us safer and makes our allies safer, the question is whether or 
not this is likely to make it more likely or less likely that 
we prevent Iran from having a nuclear weapon. And the 
skepticism that everyone has expressed is healthy. But I think 
the question is, what is, you know, does this make it more 
likely that we achieve this objective.
    And I think there seem to be very competing timelines. One 
is, you know, one timeline is doing nothing and the development 
of a nuclear Iran. The other timeline is additional sanctions 
so severe that either Iran abandons its nuclear ambition or the 
regime is brought down. And then another timeline is this 
negotiation. And I think we, we ask questions as if nothing 
will happen if we don't take some action or pursue some 
diplomatic alternative.
    And so like everyone on this panel, I hope you are 
successful in leading this effort because I think the greatest 
safety will be achieved if we prevent a nuclear Iran and we do 
it as expeditiously as we can.
    But I want to follow up with really two questions. One is 
to follow up on Congressman Deutch's question, if it is true 
that the Iranians are certain that if they violate this 
agreement that additional sanctions will be imposed, if they 
are certain of that, then speak to what would be the 
consequence of enacting sanctions, additional sanctions, that 
would not be triggered until a default of some kind in the 
agreement or even an effective date a year from now or some 
other mechanism if, in fact, they already expect that? You 
know, what would be the impact on the negotiations? What would 
be the impact on our allies? Why wouldn't we do that as a 
mechanism to be--sort of make clear what they, what you are 
already indicating they already know?
    Secretary Kerry. Because we told them we wouldn't do it 
while we were negotiating and because our partners----
    Mr. Cicilline. Additional sanctions or passing----
    Secretary Kerry. Because our partners don't expect us to 
pass new sanctions while we are negotiating and because our 
partners, if we pass them now, you know, could get squirrely on 
the whole idea of the sanctions. I mean, they will figure we 
are kind of doing our own thing and that we are not part of the 
team.
    Mr. Cicilline. Do you think that is the same view, even if 
the sanctions are not imposed but enacted----
    Secretary Kerry. Even if the sanctions are not imposed, it 
implies a lack of faith in the process and an unwillingness to 
play by the rules that our partners are playing by.
    Mr. Cicilline. And the second question, Mr. Secretary, is I 
know that, and I think this is an important point the interim 
agreement says, and I quote, ``Iran reaffirms that under no 
circumstances will Iran ever seek or develop any nuclear 
weapons.''
    And as you well know, there are many steps in research and 
development and testing that a state may undertake that are 
important steps to build nuclear capacity. In the past, 
according to IAEA, Iran has taken some of these steps and 
argued dual use because of civilian use.
    Is that an issue that you intend and can assure us that you 
will address in a final agreement?
    Secretary Kerry. It has to be. Absolutely. And that is part 
of what we were talking about, about resolving all of our 
concerns and dealing with the larger U.N. Security Council and 
ballistic missile and weaponization program issues.
    Mr. Cicilline. Then, Mr. Secretary, it seems to me that the 
outlines of the first step are creating a window of 
opportunity, and the alternative of not proceeding aggressively 
in this negotiation would allow the Iranians to proceed 
unchecked really over the next 6 months or longer. And it is my 
hope that you will be successful, and it will provide greater 
security to this country and to our allies in the region.
    And I thank you, and I yield back, Mr. Chairman.
    Secretary Kerry. Thank you, Mr. Congressman.
    Chairman Royce. Thank you.
    And we go to Mr. Jeff Duncan of South Carolina.
    Mr. Duncan. Thank you, Mr. Chairman.
    You know, it is quite a feat to have the Secretary State in 
front of our committee twice in 1 year, and I just wanted to 
remind the committee that it has been 15 months since the 
Benghazi terrorist attacks that have killed four brave 
Americans, including Tyrone Woods. The administration has 
brought none of the perpetrators to justice, nor has anyone 
been dismissed at the Department of State that may have 
culpability in the deaths of these brave Americans.
    In negotiating with Iran, the administration chose to 
ignore the plight of Pastor Abedini during the negotiations and 
decided instead to release an Iranian nuclear scientist to 
please the Iranians. That just baffles me.
    Mr. Secretary, in negotiating with Iran, you seem to give 
them the benefit of the doubt that they will comply with the 
agreement. But I agree with the Canadian Foreign Affairs 
Minister John Baird, who says, ``We think past actions best 
predict future actions, and Iran has defied the United Nations 
Security Council and the IAEA.'' Simply put, ``Iran has not 
earned the right to have the benefit of the doubt.'' Iran is a 
bad actor. We all know that.
    Numerous hearings in this committee have pointed out 
Iranian activity in the Western Hemisphere. Even the Defense 
Minister of Israel acknowledges this in a December 9th article 
in the Times of Israel. He states that Iran has built an 
infrastructure of terror in Central and South America in order 
to, among other goals, have a base from which to attack the 
U.S. These are the guys we are negotiating with.
    Iran has been clearly implicated in the Buenos Aires AMIA 
bombings in the 1990s and Latin America's administration has 
chosen to abandon 190 years of U.S. foreign policy by declaring 
the era of the Monroe Doctrine is over. Now what kind of 
message does that send? It sends the wrong message to countries 
like Iran and also to China, Russia and North Korea about our 
reliability in the region.
    So having made all those statements, I have to ask, why 
trust Iran? There has been no accountability for past actions 
and past links to terrorism.
    So I have got a series of yes-or-no questions for you.
    Iran is still listed by the U.S. State Department as a 
State sponsor of terrorism, correct?
    Secretary Kerry. Yes, it is.
    Mr. Duncan. Is Iran still supporting Hezbollah and Hamas?
    Secretary Kerry. Yes.
    Mr. Duncan. Hezbollah is still active in South America. We 
have established that in this committee, and the State 
Department has seemed to agree with that in complying with the 
Iranian threat in the Western Hemisphere Act of the last 
Congress. So what impact do you estimate sanctions relief will 
have on Iranian financial and material assistance to Hezbollah 
and other regional proxies? If we lift these sanctions and they 
have $7 billion of U.S. dollars, what impact do you think that 
will have on their state sponsor of terrorism?
    Secretary Kerry. I think very little, if any, because they 
are a $1 trillion economy, and this is a tiny percentage of 
that. So they don't--they are not banking on this money in 
order to be able to engage in the nefarious activities they 
take place in, which we disagree with, all of them. I cited a 
moment ago our concern about the many other issues, from 
ballistic missiles to supports for terror to support for 
Hezbollah. I mentioned Hezbollah earlier. So, obviously, all of 
these things concern us a lot, Congressman.
    But nowhere, nowhere, not once today, nothing that I said 
intimated in any way whatsoever a benefit of any doubt. I sat 
here and said we are skeptical. I sat here and said they have 
got to prove it. I sat here and said we are going to test them. 
I said we are not going to even mention the word trust. This is 
based on testing and verification.
    So I don't know where you get this idea about giving them 
any benefit of the doubt. There is no benefit of any doubt 
here. This is a very skeptical and tested and focused process 
of verifying a program that we have to account to the world 
for.
    Mr. Duncan. Let me ask you another question then.
    Does North Korea have nuclear weapons?
    Secretary Kerry. North Korea does not have a program yet 
that is capable, but they have had some explosions of devices.
    Mr. Duncan. In February and April 2007, North Korea agreed 
to abandoning all nuclear weapons and existing nuclear programs 
and returning at an early date to a treaty on nonproliferation 
of nuclear weapons and the IAEA safeguards. Supposedly, this 
significant achievement commits six parties at that time to an 
agreement to a denuclearized Korean Peninsula. That was in 
February and April 2007.
    Guess what? September 2008, they were back. And we gave 
them 700--I think it was 950,000 tons of fuel if they would 
stop their nuclear weapons program.
    I go back to one of the gentlemen to my left said, freeze 
and then it would unfreeze. That is exactly what happened in 
North Korea. They froze it, and then they got what they wanted 
out of the deal, and then they restarted it. I am afraid we are 
going to do this similar thing happen; different actors, the 
same script.
    And I yield back.
    Chairman Royce. We are going to go to Lois Frankel of 
Florida.
    Ms. Frankel. Thank you, Mr. Chair.
    And we all agree, and thank you, Mr. Secretary, for your 
service, your perseverance and your fortitude. And we all agree 
that Iran should not acquire a nuclear weapon.
    I have a few questions. There seems to be, listening to my 
colleagues, a lot of skepticism in the room, and implicit is, 
it sounds to me, is the belief that pushing more sanctions 
will--would eventually bring Iran to full capitulation.
    So my question to you really has to do with the timing. Why 
do you think the timing is right now for these talks and 
whether you disagree with the premise that more sanctions until 
you reach full capitulation is possible? One question.
    Number two, are we getting pressure from our partners, not 
just about sticking with this agreement but with actually 
bringing an agreement? Do you feel like they are tiring about 
enforcing sanctions?
    And then, as to the $7 billion, you seem to imply that it 
is really more or less a drop in the bucket. I know $7 billion 
isn't a drop in the bucket, but you say compared to what stays 
in place.
    So what is--what is Iran getting from this that will lead 
us to progress in these talks?
    And last, in talking about the final deal, are you going to 
be looking at having--putting back sanctions automatically if 
certain benchmarks are not met?
    Secretary Kerry. Say the last one again? I am sorry.
    Ms. Frankel. In the final deal, are you looking at 
sanctions automatically being put back if certain benchmarks 
are not met?
    Secretary Kerry. Well, let me go through each of your 
questions, Congresswoman. Thank you very much. Is the timing 
right? Is capitulation possible? And what is the timing here? 
Well, the timing, we believe, is right for a number of 
different reasons. Because we have the unity of the P5+1, 
because we believe that Iran, because of the change of the 
administration in Iran, wants to try to reach out and see if 
they can indeed achieve a different relationship.
    Now, for all the mistrust here, I have to tell you, there 
is an equal amount, if not more, mistrust in Iran. They 
mistrust us. They have a complete lack of a sense of confidence 
that we are willing to make a deal or that we will keep the 
deal. And so these things work two ways. And they have a 
perception that we are out for regime change and that what we 
want to do is just hammer them and bring more sanctions. So 
there is a lot of doubt about whether we are going to negotiate 
in good faith, which is one of the reasons why there is a 
question here about what we wind up doing after we enter into a 
negotiation.
    Now is capitulation possible? I don't believe that it is. I 
mean, it depends what you, I suppose, engage in. Does United 
States have the power ultimately, militarily, yeah, but is that 
where we are headed? Is that where Americans want to go? Is 
that what the situation calls for? That is a whole different 
set of questions, and I doubt the answers are very affirmative.
    But I think that basically sanctions are not going to 
produce capitulation, and I think that is part of the 
calculation here.
    And I think when you have a country ready to negotiate, and 
they step up and say, ``We are prepared to do this,'' and we 
have partners in the deal, if those partners perceive that we 
are not prepared to do it, then they will go off and do what 
they need to do and you lose this unanimity, this cohesion that 
we have today and cooperation we have, which is part of what 
makes the application of these sanctions so powerful. We don't 
want to lose that.
    In addition, you asked, you know, what is Iran getting? 
Well, what Iran is getting is a road map to the way they can 
get rid of the sanctions, that they ultimately hopefully can 
even strike a new relationship.
    Now what does that that require? It obviously requires 
things beyond just the nuclear program. It will require dealing 
with missiles, ballistic missiles, with terrorism, their 
support for it, with other kinds of activities. But you have 
got to begin somewhere. And the most immediate threat to us and 
to our friends in the region is the nuclear program, and that 
is where we have begun.
    Chairman Royce. Mr. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Secretary, for sharing your time 
with us on a very important and very high risk issue.
    In 2005, the President of Iran stated, ``Israel must be 
wiped off the page of time.'' In 2006, the President of Iran 
said, ``Whether you like it or not, the Zionist regime,'' 
referring to Israel, ``is on the road to being eliminated.'' 
Also, in 2006, the Iranian President added that ``the Zionist 
regime is a rotten dry tree that will be eliminated by one 
storm.''
    I emphasize that a nuclear attack on Israel certainly 
qualifies as being ``eliminated by one storm.''
    The Jewish community, the United States and, for that 
matter, almost all the rest of the world disregarded Adolph 
Hitler's threats and were deceived by Hitler's promises in the 
1930s, resulting in the Holocaust and murder of millions of 
innocent Jews. Inasmuch as Israel appears to be Iran's number 
one target, I give great weight to Israel's opinion about the 
Iran nuke deal that you advocate.
    So far, Israeli Prime Minister Benjamin Netanyahu has not 
been favorably impressed, having said,

        ``What was achieved in Geneva is not a historic 
        agreement. It is a historic mistake. To a large degree, 
        this agreement rescues Iran from the pressure it has 
        been under and also gives it international legitimacy 
        to continue its nuclear program. This is a bad 
        agreement.''

    It seems to me, Mr. Secretary, that the key to any 
agreement is whether the United States can and will enforce it. 
In that vein, Mr. Secretary, on April 12, 2013, the chairman of 
the House Armed Services Committee, Buck McKeon, and the 
chairman of the House Permanent Select Committee on 
Intelligence, Mike Rogers, sent President Obama and you a 
letter that states in part,

        ``Since October, we have written to you twice with our 
        concerns about a massive Russian violation and 
        circumvention of an arms control obligation to the 
        United States of great significance to this Nation and 
        to its NATO allies.''

    Given the Obama administration's failure to enforce arms 
control agreement with Russia, what can you say to Israel and 
the rest of our allies in the Middle East to convince them that 
America is still a reliable ally, that America will enforce 
agreements with Iran, or else, and that America's not ignoring 
history and repeating the 1930s Neville Chamberlain like 
pattern of appeasement and retreat that helped trigger World 
War II and the deaths of tens of millions of people around the 
world?
    Secretary Kerry. Well, let me begin, Congressman, by first 
of all condemning in the strongest language possible those 
expressions of hate and of sheer and utter insanity almost, 
asking for a country to be wiped off the face of the map and of 
time and for people to be so. That language is the most 
abhorrent kind of language you can find in any discourse in 
public life. It has no place in a reasonable world. It is 
unacceptable, and we should never hear that kind of language 
again.
    Secondly, with respect to Prime Minister Netanyahu and 
``his attitude'' about this, I have had many conversations with 
the Prime Minister. He is a friend of mine, we talk frequently, 
and I respect his leadership. And I think he and I are working 
very, very effectively together on a lot of things. He knows, 
and I think Israel knows, that nothing will come between our 
relationship, our security relationship. Our commitment to 
Israel is ironclad, and we just may occasionally have a 
difference of tactics, but we have no difference strategically 
in what our goal is. Our goal is to make Israel safer, make the 
world and region safer, and we are committed to not allowing 
Iran to have a nuclear weapon.
    And this President, I will tell you unequivocally, without 
any question, demonstrably, measurably has done more to provide 
for the security of Israel than any other administration in 
history. He has provided an Iron Dome----
    Mr. Brooks. Mr. Secretary, my time is running out, let me 
just conclude with one sentence.
    Secretary Kerry. I am going to exercise the privilege of 
answering your question, Congressman. I am not just going to 
sit here and have you lecture me----
    Mr. Brooks. Mr. Chairman, may I have 5 to 10 seconds?
    Chairman Royce. Excuse me, I think there is time for, Mr. 
Brooks, both for you to ask a question and certainly for our 
Secretary of State to answer that question.
    Secretary Kerry. The President has made certain that Israel 
has Iron Dome, Israel has the B-22 Osprey. No other nation in 
the world has it. Israel has weaponry no other nation has. We 
have an aid program. A day-to-day collaboration, day to day. 
Even this week, the national security adviser is here 
collaborating, talking with us about how we approach this 
question of dealing with Iran.
    So I will tell you that we take no back seat to any 
administration ever in our support and our friendship and 
commitment to the state of Israel.
    Now, that said, I think that the United States is engaged 
in many efforts in the region now that make clear our 
determination to be a friend and supportive. We are removing 
weapons of mass destruction from Syria. We are engaged in major 
discussions with the Saudis, Emirates, and others about Syria, 
about other issues, and I think those countries understand that 
when the President says Iran will not get a nuclear weapon and 
he actually develops the military capacity to guarantee that, 
which no other President did, they can trust that the President 
means what he says.
    Mr. Brooks. Thank you, Mr. Secretary.
    In April 2009, President Obama said in Prague, ``Rules must 
be binding. Violations must be punished. Words must mean 
something.''
    If there is anything I can do to assist you in that regard 
with respect to these agreements, please, let me know.
    Secretary Kerry. Absolutely. And I will tell you that we 
are focused on those, and we take them seriously.
    Chairman Royce. Well, I thank you, again, Mr. Secretary. I 
understand you have to go.
    And I am sorry we didn't get to all of the members, but I 
think the department is going to be available to answer all the 
members' written questions, and the Secretary of State will 
certainly be involved in that process in the days and weeks 
ahead. We, again, thank all of the members for attending this 
hearing today.
    And Mr. Secretary, we thank you.
    Secretary Kerry. With your permission, Mr. Chairman, we 
didn't have time to do this earlier, but I would like to just 
put something on the record, because I keep hearing this and I 
don't think it adequately reflects the record.
    The FBI is currently conducting investigation and working 
through the law to try to apprehend identifiable people with 
respect to what happened in Benghazi. But it is absolutely 
inaccurate to suggest that nobody paid a price in the State 
Department for what happened.
    A report was delivered to me. I have acted on that report, 
as I said I would. Two people were demoted and retired, two 
retired. Two careers were ended over it. And they left the 
department. And two other careers have seen demotions as a 
consequence of what happened there.
    So I think it is simply inaccurate, and I hope we will stop 
repeating something as a mythology that has no basis in fact. 
There was accountability. There is accountability, and we need 
to go forward from that, frankly.
    Chairman Royce. Well, thank you, Mr. Secretary.
    As you know, we have made requests for a lot of data, 
which--some of which we got and a lot we did not. And so we 
look forward to continuing to work with you to have the 
questions that were asked by Members of Congress answered by 
the department of State and receiving the information that we 
have requested. We thank you again for your testimony here 
today.
    We thank the members.
    Secretary Kerry. Thank you, Mr. Chairman.
    Chairman Royce. We stand adjourned.
    [Whereupon, at 3:45 p.m., the committee was 
adjourned<plus-minus>.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>

</pre></body></html>
